<html>
<title> - BROADBAND: DEPLOYING AMERICA'S 21ST CENTURY INFRASTRUCTURE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



       BROADBAND: DEPLOYING AMERICA'S 21ST CENTURY INFRASTRUCTURE

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 21, 2017

                               __________

                           Serial No. 115-15


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  
      
      

         Available via the World Wide Web: http://www.fdsys.gov
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
25-494 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d7b0a7b897b4a2a4a3bfb2bba7f9b4b8baf9">[email&#160;protected]</a>                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
TIM MURPHY, Pennsylvania             ELIOT L. ENGEL, New York
MICHAEL C. BURGESS, Texas            GENE GREEN, Texas
MARSHA BLACKBURN, Tennessee          DIANA DeGETTE, Colorado
STEVE SCALISE, Louisiana             MICHAEL F. DOYLE, Pennsylvania
ROBERT E. LATTA, Ohio                JANICE D. SCHAKOWSKY, Illinois
CATHY McMORRIS RODGERS, Washington   G.K. BUTTERFIELD, North Carolina
GREGG HARPER, Mississippi            DORIS O. MATSUI, California
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas                    JERRY McNERNEY, California
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
ADAM KINZINGER, Illinois             BEN RAY LUJAN, New Mexico
H. MORGAN GRIFFITH, Virginia         PAUL TONKO, New York
GUS M. BILIRAKIS, Florida            YVETTE D. CLARKE, New York
BILL JOHNSON, Ohio                   DAVID LOEBSACK, Iowa
BILLY LONG, Missouri                 KURT SCHRADER, Oregon
LARRY BUCSHON, Indiana               JOSEPH P. KENNEDY, III, 
BILL FLORES, Texas                       Massachusetts
SUSAN W. BROOKS, Indiana             TONY CARDENAS, California
MARKWAYNE MULLIN, Oklahoma           RAUL RUIZ, California
RICHARD HUDSON, North Carolina       SCOTT H. PETERS, California
CHRIS COLLINS, New York              DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia

             Subcommittee on Communications and Technology

                      MARSHA BLACKBURN, Tennessee
                                 Chairman
LEONARD LANCE, New Jersey            MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               PETER WELCH, Vermont
STEVE SCALISE, Louisiana             YVETTE D. CLARKE, New York
ROBERT E. LATTA, Ohio                DAVID LOEBSACK, Iowa
BRETT GUTHRIE, Kentucky              RAUL RUIZ, California
PETE OLSON, Texas                    DEBBIE DINGELL, Michigan
ADAM KINZINGER, Illinois             BOBBY L. RUSH, Illinois
GUS M. BILIRAKIS, Florida            ANNA G. ESHOO, California
BILL JOHNSON, Ohio                   ELIOT L. ENGEL, New York
BILLY LONG, Missouri                 G.K. BUTTERFIELD, North Carolina
BILL FLORES, Texas                   DORIS O. MATSUI, California
SUSAN W. BROOKS, Tennessee           JERRY McNERNEY, California
CHRIS COLLINS, New York              FRANK PALLONE, Jr., New Jersey (ex 
KEVIN CRAMER, North Dakota               officio)
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
GREG WALDEN, Oregon (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     1
    Prepared statement...........................................     3
Hon. Michael F. Doyle, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................     3
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     5
Hon. Leonard Lance, a Representative in Congress from the State 
  of New Jersey, opening statement...............................     7
    Prepared statement...........................................
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, prepared statement.....................................   170

                               Witnesses

Steven K. Berry, President and CEO, Competitive Carriers 
  Association....................................................     9
    Prepared statement...........................................    12
    Answers to submitted questions...............................
Michael Conners, Saint Regis Mohawk Tribe........................    28
    Prepared statement...........................................    30
    Answers to submitted questions...............................
Thomas A. Murray, Founder and Managing Member, Community Wireless 
  Structures, and Chairman of the Board of Directors, Wireless 
  Infrastructure Association.....................................    36
    Prepared statement...........................................    38
    Answers to submitted questions...............................
Joanne S. Hovis, President, CTC Technology and Energy............    48
    Prepared statement...........................................    50
    Answers to submitted questions...............................
Leroy T. Carlson, Jr., CEO, Telephone and Data Systems, Inc., and 
  Chairman, U.S. Cellular........................................    62
    Prepared statement...........................................    64
    Answers to submitted questions...............................
James W. Stegeman, President, Costquest Associates, Inc..........   128
    Prepared statement...........................................   131
    Answers to submitted questions...............................
Bryan Darr, CEO, Mosaik Solutions................................   157
    Prepared statement...........................................   159
    Answers to submitted questions...............................

                           Submitted Material

Broadband coverage map of Iowa, submitted by Mr. Loebsack........   171
Statement of Public Knowledge, submitted by Ms. Eshoo............   172
Statement of the Satellite Industry Association, submitted by 
  Mrs. Blackburn.................................................   175
Statement of Rocket Fiber, submitted by Mrs. Blackburn...........   180
Statement of the American Cable Association, submitted by Mrs. 
  Blackburn......................................................   183
Statement of CTIA, submitted by Mrs. Blackburn...................   192
Statement of Century Link, submitted by Mrs. Blackburn...........   197
Statement of the Information Technology Industry Council, 
  submitted by Mrs. Blackburn....................................   198
Statement of various telecom groups..............................   199
Statement of the Telecommunications Industry Association.........   202

 
       BROADBAND: DEPLOYING AMERICA'S 21ST CENTURY INFRASTRUCTURE

                              ----------                              


                        TUESDAY, MARCH 21, 2017

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2322 Rayburn House Office Building, Hon. Marsha Blackburn 
(chairman of the subcommittee) presiding.
    Present: Representatives Lance, Shimkus, Latta, Guthrie, 
Olson, Kinzinger, Bilirakis, Johnson, Long, Flores, Brooks, 
Collins, Cramer, Walters, Costello, Doyle, Welch, Clarke, 
Loebsack, Ruiz, Dingell, Eshoo, Engel, Matsui, McNerney, and 
Pallone (ex officio).
    Staff present: Chuck Flint, Policy Coordinator, 
Communications and Technology; Adam Fromm, Director of Outreach 
and Coalitions; Gene Fullano, Detailee, Communications and 
Technology; Giulia Giannangeli, Legislative Clerk, Digital 
Commerce and Consumer Protection/Communications and Technology; 
Kelsey Guyselman, Counsel, Communications and Technology; Alex 
Miller, Video Production Aide and Press Assistant; David Redl, 
Chief Counsel, Communications and Technology; Dan Schneider, 
Press Secretary; Gregory Watson, Legislative Clerk, 
Communications and Technology; Jeff Carroll, Minority Staff 
Director; Alex Debianchi, Minority Telecom Fellow; David 
Goldman, Minority Chief Counsel, Communications and Technology; 
Jerry Leverich, Minority Counsel; Lori Maarbjerg, Minority FCC 
Detailee; Jessica Martinez, Minority Outreach and Member 
Services Coordinator; and Dan Miller, Minority Staff Assistant.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn [presiding]. The Subcommittee on 
Communications and Technology will now come to order.
    The Chair now recognizes herself for 5 minutes for an 
opening statement.
    And I do want to welcome everyone to the Communications and 
Technology Subcommittee hearing titled, appropriately, 
``Broadband: Deploying America's 21st Century Infrastructure''.
    Also, a thank you to the witnesses for appearing as we 
examine the barriers to deployment and consider discussion 
drafts to facilitate the deployment of communications 
infrastructure.
    Broadband is the infrastructure challenge of this decade, 
and the digital divide continues to frustrate so many 
Americans. We must cut through the red tape by streamlining 
permitting processes and implement accurate availability of 
data in order to solve the broadband dilemma.
    Lack of broadband access, particularly in our rural areas, 
is an issue which affects the constituents of numerous members 
of this subcommittee, Republican and Democrat. We are all tired 
of hearing stories about parents driving their children to the 
local McDonald's for internet access in order to finish 
homework assignments. We owe them better, period.
    The 5G revolution is upon us, and we should modernize our 
laws to address issues such as tower siting and federal rights-
of-way which are tying the hands of our private sector.
    Let's consider the small cell phenomenon. Many carriers are 
now deploying small cells, the size of pizza boxes, as opposed 
to large towers. Small cells can be easily attached to 
freestanding poles, mitigate the risk of adverse environmental 
impacts, and are less likely to upset local zoning ordinances. 
They simply do not require the depth of review contemplated by 
outdated laws designed for larger towers.
    Each administration has attempted to spur broadband 
deployment, beginning with the Clinton administration's efforts 
in 1995 when GSA tried to streamline the permitting process for 
wireless antennas. $7.2 billion in federal grants and loans 
were awarded through NTIA's Broadband Technology Opportunity 
Program and the RUS Broadband Initiative Program as a part of 
the Obama administration's American Recovery and Reinvestment 
Act of 2009. President Trump has signaled that broadband will 
be a significant part of his administration's planned 
infrastructure package.
    Therefore, we will be considering two discussion drafts 
that expedite broadband deployment. The first will assist these 
efforts by doing things such as creating an inventory of 
federal assets that can be used to attach or install broadband 
infrastructure. And two, requiring all landholding agencies to 
use common templates when leasing space for wireless broadband 
attachments. And No. 3, streamlining processes for 
communications facilities location applications at the 
Department of Interior and the Forest Service. The second, 
Representative Eshoo's ``Dig Once'' initiative, would mandate 
the inclusion of broadband conduit during theconstruction of 
certain highway projects that receive federal funding.
    In addition to reducing barriers to deployment, we must 
accurately collect and aggregate data to update the National 
Broadband Map. The map has not been updated since June 2014, 
when BTOP funding ceased. It is imperative that we fix these 
maps, but doing so is a fool's errand without precise data. 
This will ensure that private and federal investments are 
targeted at unserved areas.
    Unleashing broadband will create economic, educational, and 
healthcare opportunities for millions of hardworking taxpayers. 
A recent Accenture report notes that smart cities growth could 
result in a $500 billion impact on GDP over 10 years.
    People want broadband as much as new roads. Republicans and 
Democrats are eager to work together to solve this problem.
    Thank you, and I yield back.
    [The prepared statement of Mrs. Blackburn follows:]

              Prepared statement of Hon. Marsha Blackburn

    Welcome everyone to the Communications and Technology 
Subcommittee's hearing titled: ``Broadband: Deploying America's 
21st Century Infrastructure''. Also, thank you to the witnesses 
for appearing as we examine barriers to deployment and consider 
discussion drafts to facilitate the deployment of 
communications infrastructure. Broadband is the infrastructure 
challenge of this decade and the ``digital divide'' continues 
to frustrate many Americans. We must cut through red tape by 
streamlining permitting processes and implement accurate 
availability data in order to solve the broadband dilemma.
    Lack of broadband access, particularly in rural areas, is 
an issue which affects the constituents of numerous Members of 
this subcommittee, Republican and Democrat. We are all tired of 
hearing stories about parents driving their children to the 
local McDonald's for Internet access in order to finish 
homework assignments. We owe them better, period.The 5G 
revolution is upon us and we should modernize our laws to 
address issues such as tower siting and federal rights of ways, 
which are tying the hands of our private sector.
    Let's consider the ``small cell'' phenomenon. Many carriers 
are now deploying small cells the size of pizza boxes, as 
opposed to building large towers. Small cells can be easily 
attached to freestanding poles, mitigate the risk of adverse 
environmental impacts, and are less likely to upset local 
zoning ordinances. They simply do not require the depth of 
review contemplated by outdated laws designed for larger 
towers.
    Each Administration has attempted to spur broadband 
deployment beginning with the Clinton Administration's efforts 
in 1995 when GSA tried to streamline the permitting process for 
wireless antennas. $7.2 billion in Federal grants and loans 
were awarded through NTIA's Broadband Technology Opportunity 
Program and the RUS Broadband Initiative Program as a part of 
the Obama Administration's American Recovery and Reinvestment 
Act of 2009. President Trump has signaled that broadband will 
be a significant part of his Administration's planned 
infrastructure package.
    Therefore, we will be considering two discussion drafts 
that expedite broadband deployment. The first will assist these 
efforts by doing things such as: 1) creating an inventory of 
federal assets that can be used to attach or install broadband 
infrastructure; 2) requiring all landholding agencies to use 
common templates when leasing space for wireless broadband 
attachments; and 3) streamlining processes for communications 
facilities location applications at the Department of Interior 
and Forest Service. The second, Representative Eshoo's ``Dig 
Once'' initiative, would mandate the inclusion of broadband 
conduit during the construction of certain highway projects 
which receive federal funding.
    In addition to reducing barriers to deployment, we must 
accurately collect and aggregate data to update the National 
Broadband Map. The map has not been updated since June 2014 
when BTOP funding ceased. It is imperative that we fix the map, 
but doing so is a fool's errand without precise data. This will 
ensure that private and federal investments are targeted at 
unserved areas.
    Unleashing broadband will create economic, educational and 
healthcare opportunities for millions of hardworking taxpayers. 
A recent Accenture report notes that smart cities growth could 
result in a $500 billion impact on GDP over ten years. People 
want broadband as much as new roads. Republicans and Democrats 
are eager to work together to solve this challenge.

    Mrs. Blackburn. At this point I recognize Mr. Doyle for 5 
minutes for an opening statement.

OPENING STATEMENT OF HON. MICHAEL F. DOYLE, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Doyle. Thank you, Madam Chair, for holding this hearing 
today, and to all of the witnesses for appearing before us 
today.
    Access to affordable broadband remains one of the great 
challenges faced by people in this country, and far too many 
people in this country either have no access, limited access, 
or overpriced access. Broadband is an essential tool for 
participation in modern life. We use it to find employment, 
educate our children, get access to health care, and connect 
with our communities. But far too many Americans don't have the 
type of connectivity that they want or need, and certainly in 
many parts of the country the free market has failed to close 
these gaps.
    As many of the witnesses point out in their testimony, 
carriers that provide connectivity under the Universal Service 
Program will not be able to raise enough capital to build out 
or sustain rural broadband networks on their own. As major 
cities are looking at the challenges and opportunities of 
gigabit or multi-gigabit 5G wireless deployments in the next 
few years, rural carriers will be working over the next 10 
years to deploy basic LTE services.
    I think moving forward with this program is critical, but 
the challenge we face as a nation is that servicing rural 
America will require greater sustained investment if we hope to 
prevent communities from being left behind. Tax credits and 
toll booths can't sustain infrastructure in places that don't 
have economically-viable markets.
    The draft bills offered by the majority today are fine 
bills that address a number of challenges to deploying 
broadband, but they don't get at the real problem, which is 
that there isn't a business case for investing in these 
regions. I was looking through some of the data submitted by 
CostQuest Associates from the second panel. Some members here 
have districts with as few as 11 percent of the household 
served by terrestrial broadband. Recent studies have also shown 
redlining in cities like Cleveland, which have resulted in low-
income communities being left behind while affluent parts of 
the city receive upgraded service.
    And access isn't our only challenge. The FCC found that 82 
percent of the country has only one provider to choose from for 
high-speed broadband. With numbers like that, if we were 
talking about health care, Republicans would be fighting to 
repeal and replace internet service in this country.
    The Consumer Federation of America found that a lack of 
competition results in Americans overpaying roughly $60 billion 
a year for broadband that amounts to $250 billion over the past 
five years. According to CostQuest Associates, that overage 
alone would pay for the buildout of a ubiquitous high-speed 
network that could support high consumer use, autonomous 
vehicles, and future demand. We can't ignore the impact that a 
lack of competition has on cost to consumers or the pace of 
deployment.
    At this time, Madam Chair, I would like to yield the 
balance of my time to Ms. Matsui.
    Ms. Matsui. Thank you, Mr. Doyle, for yielding me time.
    Technology plays a role in nearly every sector of our 
economy. Yet, across our country too many families face a 
digital divide. This has real consequences on the American 
people and their ability to compete. Not having access to 
broadband could mean a child is unable to do research online or 
send a homework assignment on time.
    In order to ensure our families are equipped with tools 
they need to participate in today's digital economy, we need to 
make real, sustained federal investments in broadband 
deployment. This is going to require more than tax cuts and 
deregulatory action.
    Our country has always been committed to the principle of 
universal service and recognized that there is a public sector 
role for places the private sector will never go. Millions of 
Americans could lose out if we don't make a commitment now to 
build the infrastructure we need for all of us to compete in 
the 21st century.
    Thank you, Mr. Doyle. I yield to anyone else who wants 
time.
    Mr. Doyle. Yes, reclaiming, would anybody like the last 
minute? Yes, Mr. Lujan.
    Mr. Lujan. Thank you, Madam Chair and Ranking Member Doyle, 
for the time today.
    Access to broadband, as we know, is a critical resource for 
all Americans today. It is how they learn, find jobs, do 
business, communicate with family, follow the news. But in my 
state and too many rural states, we have been left behind. 
Congress plans to advance a long overdue infrastructure 
package, and it must include meaningful investments in 
broadband.
    We must also be creative in how we support such 
investments, which is why I am working to develop legislation 
that seeks to assist broadband buildout, not through direct 
government investments, but through federal incentives. My 
discussion draft, the Broadband Infrastructure Finance 
Innovation Act, creates low-interest financing opportunities 
for public/private partnerships as well as state and local 
authorities. These opportunities include lines of credit, 
secured loans, loan guarantees, and interest rates pegged to 
that of Treasury bonds.
    So, I look forward to today's discussion and, with that, I 
yield back the balance of my time.
    Mrs. Blackburn. The gentleman yields back, and we are 
waiting for a couple of members on our side to come from the 
Capitol. So, Mr. Pallone, I will recognize you for 5 minutes. I 
know you are just coming in, and I know Mr. Loebsack wants a 
portion of that time. So, I will seek the leadership, your 
guidance on this. Do you want to claim the time or Mr. 
Loebsack?
    Mr. Pallone. Yes, I will.
    Mrs. Blackburn. You will claim the time. The gentleman is 
recognized for 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. I will make sure, yes, that I yield at the end 
to Mr. Loebsack.
    I want to thank you, Madam Chairwoman and our Ranking 
Member Doyle, for the hearing, and our witnesses.
    In these uncertain economic times, deploying more secure, 
high-speed internet means providing more opportunities for more 
people, opportunities to get a proper education, to apply for 
new jobs, or to train for a new career. And that is why the 
Democratic members of this subcommittee have introduced bills 
to maximize this potential, especially for those that are 
struggling to find good jobs.
    Our bills also give the FCC a key role in keeping our 
networks secure. These efforts are critical because secure 
broadband could help give all Americans a fair shot, even in 
the corners of this country that are hardest to reach.
    During the last Congress we worked to draft a discussion 
bill that had bipartisan support here in our committee. We are 
also happy to move forward with Congresswoman Eshoo's Dig Once 
bill. And we are ready to get back to work again this year.
    But, without prior consultation, Republicans unilaterally 
revised this bipartisan bill, and at this point we are still 
reviewing the new draft. But I would have hoped that the 
Republican majority would have consulted with us prior to 
revising the legislation and announcing this legislative 
hearing.
    At the same time, the proposal in this bill will only get 
us so far. More critically, we must include broadband in our 
efforts to overhaul the nation's infrastructure. Congress needs 
to invest in a connected future, and I have seen some suggest 
that tax incentives will somehow increase broadband in rural 
and tribal areas. But tax cuts alone won't get it done, 
especially in areas where there is not a strong business case, 
like tribal lands.
    The FCC staff recently released a report showing what it 
would actually take to deploy to these remote areas and 
explaining that it will cost at least $40 billion to reach 98 
percent of the population. The costs go up dramatically to 
reach the last 2 percent, and that is a serious investment that 
we should be discussing as part of any infrastructure bill.
    Unfortunately, the Trump administration is ignoring the 
needs of the people in rural America and tribal lands. The 
President's budget would brutally cut off agencies like the 
U.S. Economic Development Administration and the Appalachian 
Regional Commission. These agencies are critical to support 
deployment in the parts of the country that could use the jobs 
that come with more broadband. And this Congress must reject 
the President's budget and we must pass a real infrastructure 
bill that includes at least the $40 billion to make sure 98 
percent of the country gets broadband.
    So, today's witnesses are the types of experts we need to 
hear from to lay the foundation for that legislation.
    And I would like to yield my time, I guess I am yielding 1 
minute. You already spoke, Mr. Lujan? All right, then, I will 
yield the rest of the time to Congressman Loebsack.
    Mr. Loebsack. Thank you, Mr. Pallone. Thank you, Madam 
Chair, for this hearing.
    Broadband is not a luxury for rural America; it is 
survival. And I think everybody who is here today understands 
that.
    Communities cannot thrive if they are left behind as the 
rest of the country moves forward. Investing in broadband 
creates jobs and it helps communities grow. There are two 
critical things we need to connect these communities, dollars 
and data. We are talking about dollars, but we also need data. 
We need direct investment in fixed and mobile broadband, just 
like we invest in other types of infrastructure, and we need 
data. Right now, the data the FCC is using to determine where 
to invest in wireless shows that the entire state of Iowa, for 
example, is covered.
    Madam Chair, I would like to request unanimous consent to 
enter into the record a map I have here of coverage of Iowa.
    Mrs. Blackburn. So ordered.
    Mr. Loebsack. Thank you.
    [The information appears at the conclusion of the hearing.]
    Mr. Loebsack. As you can see, folks, according to the FCC, 
all of Iowa gets 4G LTE coverage, according to the FCC, at the 
moment. Now I am constantly driving through my 24 counties to 
meet with constituents in Iowa, and I can tell you, and they 
can tell you as well, that this is not a reality. It is just 
not a reality. We have dead spots; we have dropped calls; we 
have poor speeds, and we have more in some areas.
    That is why I have recently introduced the Rural Wireless 
Access Act to improve these maps. We have to have good data. We 
have to have good maps. We have to get the data right, so we 
can target the resources to fix the problem. So, data, 
absolutely critical folks, not just the money.
    Thank you so much, Mr. Pallone, for yielding, and I will 
yield back. Thank you.
    Mr. Pallone. I yield back the remainder of my time.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Lance, you are recognized for 5 minutes.

 OPENING STATEMENT OF HON. LEONARD LANCE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Lance. Thank you very much, and I want to thank the 
distinguished panel for appearing before us today. And I 
certainly commend the Chair for her distinguished work in this 
area.
    Commerce has always been reliant on infrastructure. 
Innovations from the Transcontinental Railroad in the 19th 
century to the interstate highly in the 20th century have 
succeeded in connecting more businesses with consumers, 
decreasing the cost of doing business, expanding markets, and 
improving America's quality of life.
     As the committee tasked with regulating interstate and 
foreign commerce since 1795, it is the Energy and Commerce's 
job to encourage the deployment of the infrastructure of the 
21st century, broadband internet, which has the potential to 
connect every business and consumer in the country and around 
the world.
    While the district I serve in New Jersey is not among the 
most unserved or underserved, I believe striving to connect 
those households that lack broadband access is a worthy goal 
that will benefit all Americans. As our economy becomes 
increasingly more digitized, bringing broadband access to more 
areas of the country, connects more consumers and small 
businesses to the internet economy for the economic benefit of 
all, improved broadband infrastructure will also pave the way 
for future technologies like 5G, which has the potential to add 
millions of jobs and billions of dollars in GDP growth to the 
economy.
    However, as we seek to decrease this digital divide and 
expand our broadband infrastructure, it is imperative that we 
learn from the mistakes of the past and ensure that we have the 
necessary accurate data to deploy our resources efficiently and 
effectively.
    I look forward to hearing the testimony of both panels and 
continuing the subcommittee's work on this important topic.
    And I am certainly willing to yield to other members who 
wish to have an opening statement.
    Mr. Shimkus?
    Mr. Shimkus. I thank my colleague.
    And as the chairwoman said, in my district my district 
staff knows that I am a McDonald's afficionado and the No. 1 
meal is my go-to meal. So, if my parents had a chance to get me 
to go to McDonald's to do my homework, I probably would have 
been all in on that.
    [Laughter.]
    But it is interesting listening to the comments on both 
sides because there is, obviously, a great opportunity, I 
think, to work together to move issues. A couple of things that 
I would like to talk about are, and Ms. Matsui mentioned 
Universal Service Fund should be properly directed, and I think 
that is a key for underserved areas.
    We have adequate maps. The Chairwoman Blackburn mentioned 
adequate maps and real definitions. My point would be adequate 
definitions. What is high speed? What are we going to decide? 
And many of you in this sector know that I talk about this all 
the time because what is high speed to one is not high speed to 
another. This should be part of an infrastructure package, as 
we tee this up. If there is ever going to be a $1 trillion 
infrastructure rollout, obviously, this should be part of that. 
Also, we are addressing Anna Eshoo's bill, too, which had a lot 
of support in the last Congress, and that dovetails right into 
infrastructure.
    So, I think properly managed, as we move this process 
forward, Madam Chairman, I think we should be able to move on a 
bipartisan package that should have some legs, and I look 
forward to working with you on it.
    I yield back.
    Mr. Lance. Thank you very much.
    Are there other members on our side who would like to 
speak?
    Mr. Johnson?
    Mr. Johnson. I thank you for yielding.
    This is a very, very important hearing. And I have heard 
some of the comments by my colleagues. I represent Appalachia. 
There are many places in my district that young people, high 
school children, college kids even, have to go to a neighboring 
town or a public library or some other facility to get access 
to the internet to do their school projects. You can't educate 
young people in 2017 in the kind of high-tech-driven world that 
we live in when they have to go to that extreme.
    We have got to solve this problem, and I look forward to 
hearing what our panel has to say today. And I look forward to 
working with you, Madam Chairman, to address these issues.
    Mr. Lance. Thank you very much.
    Anyone else?
    Seeing none, I yield back the balance of my time, Madam 
Chair.
    Mrs. Blackburn. The gentleman yields back, and this 
concludes our member opening statements.
    I will remind all that, pursuant to the committee rules, 
all members' opening statements will be made a part of the 
record.
    We want to thank all of our witnesses. We are so grateful 
that you are here today and grateful that all of that testimony 
got in early. We thank you for that, and we thank you that you 
are here to testify.
    We will have two panels, just as a couple of our members 
have mentioned. Each panel of witnesses will have the 
opportunity to give an opening statement, followed by a round 
of questions from members. Once we conclude with the questions 
on the first panel, we will take a brief reset and bring the 
second panel forward.
    Our first witness panel for today's hearings includes, and 
we welcome, Mr. Steve Berry, who serves as the President and 
CEO of Competitive Carriers Association; Mr. Michael Conners, 
who is the Sub Chief of the Saint Regis Mohawk Tribe from 
California; Mr. Thomas, or ``Tam'', Murray, who is the Founder 
and Managing Member of Community Wireless Structures, which is 
based out of northern Virginia; Ms. Joanne Hovis, who is the 
President of CTC Technology and Energy, and Mr. Ted Carlson, 
Jr., who is the CEO of Telephone and Data Systems and Chairman 
of U.S. Cellular.
    We appreciate all of you being here today and preparing for 
this hearing. We will begin the panel with you, Mr. Berry. You 
are now recognized for 5 minutes for your statement.

 STATEMENTS OF STEVEN K. BERRY, PRESIDENT AND CEO, COMPETITIVE 
 CARRIERS ASSOCIATION; SUB CHIEF MICHAEL CONNERS, SAINT REGIS 
 MOHAWK TRIBE; THOMAS A. MURRAY, FOUNDER AND MANAGING MEMBER, 
  COMMUNITY WIRELESS STRUCTURES, AND CHAIRMAN OF THE BOARD OF 
   DIRECTORS, WIRELESS INFRASTRUCTURE ASSOCIATION; JOANNE S. 
HOVIS, PRESIDENT, CTC TECHNOLOGY AND ENERGY; LEROY T. CARLSON, 
JR., CEO, TELEPHONE AND DATA SYSTEMS, INC., AND CHAIRMAN, U.S. 
                            CELLULAR

                  STATEMENT OF STEVEN K. BERRY

    Mr. Berry. Chairman Blackburn, Ranking Member Doyle, and 
Members of the Subcommittee, thank you for inviting me to 
testify about broadband infrastructure.
    I am here today on behalf of CCA, representing nearly 100 
wireless carriers and nearly 200 vendors and suppliers.
    I agree with your observations, Chairman Blackburn, that 
broadband is the infrastructure issue of this decade. Mobile 
broadband, in particular, drives jobs creation, drives economic 
development, connecting Americans while providing new 
applications for services that were really unthinkable only a 
few years go.
    Demand for mobile broadband is growing exponentially, and 
we are on the verge of an evolutionary leap into 5G services. 
Qualcomm projects, with 5G, it will support 22 million jobs and 
generate $3.5 trillion in revenue. 5G will build upon 4G LTE, 
and it is not a replacement for LTE, especially in rural 
America. So, there is no time to wait. This is not a 
telecommunication issue only. It is a jobs issue. It is an 
education issue and a public health and a public safety issue, 
and an American competitiveness issue.
    I am pleased to support the committee's efforts to expand 
infrastructure. Also, FCC Chairman Pai is off to a good start 
with his Digital Empowerment Agenda and proposing the Broadband 
Deployment Advisory Committee. The record is sufficient for FCC 
to act now.
    Let me identify five areas for action.
    First, any infrastructure proposal must include support for 
mobile broadband. A bipartisan group of Members of Congress, 
including 12 members of this committee, recently wrote 
President Trump to that effect. This should include direct 
support, tax incentives, access to spectrum, reduced fees, and 
streamlined procedures. Most importantly, direct support should 
be distributed through the FCC and used to provide additional 
resources for the Mobility Fund.
    Second, we must take steps to streamline the process at 
every level. Barriers to deployment remain. It sort of reminds 
me of that famous line in a classic movie Cool Hand Luke, 
``What we've got here is a failure to communicate.''
    To provide wireless service, carriers need to deploy 
towers, small cells, conduit, antennas, and, yes, even wires. 
The process for approval is a regulatory nightmare. Let me 
share with you a visual of the incredibly burdensome steps and 
potential pitfalls that carriers have to endure. I think you 
have it up on your screen and before you.
    One look at this infographic and it is abundantly clear 
that we need to simplify and streamline the process. We need to 
make it easier to build the infrastructure of the 21st century.
    The discussion draft bills this committee is considering 
take important steps to address many of these challenges, and 
Congress should move forward without delay. Broadband is an 
immediate priority for the nation, and leadership starts at the 
federal level. Twenty-eight percent of the nation's geography 
is owned or managed by the federal government and 100 percent 
of all the spectrum.
    Third, Congress should legislate now. For example the Dig 
Once bill is common-sense policy and would immediately help 
carriers to gain access to backhaul wireless data, as Ms. Anna 
Eshoo knows.
    Congress should streamline and accelerate historic and 
environmental review and direct federal agencies to set real 
deadlines for action and decisions with consequences for 
missing deadlines, like shot-clocks with deemed granted 
provisions if an agency doesn't respond. The committee need not 
wait for a broader infrastructure proposal.
    Congress should also support swift action at the FCC, and I 
mean now at the FCC. Deploying the latest wireless 
infrastructure is totally different than constructing a large 
tower. And I ask you for a moment, imagine a 250-foot tower. 
Now let me show you today's tower. The pizza box that the 
chairman talked about, this is the new tower, and they are 
getting smaller, believe it or not. Too often the same rules 
applied to deploying small cells or even changing out antennas 
is as applied to tall towers. Streamlining the application 
process will also ease increased demand on municipal resources.
    Fourth, application fees and other costs associated with 
reviews should be justified, consistent, and tied to actual 
review costs and rights-of-way management. Again, the same fees 
that apply to tall towers should not apply to small cells. 
Applications to deploy broadband need to be viewed as 
investments. Yes, that is correct, investments, to create jobs, 
to create an expanded economy, and not as a revenue-generator 
from the application itself.
    Fifth, and maybe most importantly, as Mr. Loebsack said, we 
need better data. If you can't measure an issue, you can't fix 
it. The current FCC data for wireless coverage is not 
standardized or reliable. For example, the difference of only 
5-decibel milliwatts in propagation measurement can overstate 
geographic coverage by over 100 percent. We need to clearly 
identify and have better data.
    Finally, spectrum is infrastructure. You can add capacity 
and coverage by adding spectrum and building sites, but this 
committee deserves credit for your launch of the Incentive 
Auction, and it is critical to put that 600-megahertz spectrum 
into use in the 39 months ahead of us and deploy it in rural 
America. This committee should be congratulated in your meeting 
the growing demands and empower our economic growth. And we 
believe that eliminating the regulatory morass----
    Mrs. Blackburn. The gentleman's time has expired.
    Mr. Berry [continuing]. That delays our building of the 
infrastructure is well worth the time.
    Thank you, and I ask for your kind indulgence. I was over 5 
minutes.
    [The prepared statement of Steven K. Berry follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. Thank you, Mr. Berry.
    Mr. Connors, you are recognized, 5 minutes.

             STATEMENT OF SUB CHIEF MICHAEL CONNERS

    Mr. Connors. [Speaking Native language.]
    Hello. My name is Michael Conners. I am a Sub Chief of the 
Saint Regis Mohawk Tribe.
    Chairman Blackburn, Ranking Member Doyle, and Members of 
the Subcommittee, it is my honor to be here with you today to 
discuss our tribe's successful efforts to build critical 
broadband infrastructure in New York, highlight our legislative 
priorities, and recommend the best practices for deploying 
broadband services on tribal lands and throughout rural 
America.
    The Saint Regis Mohawk Tribe is a federally-recognized 
tribal government located in our traditional territory of 
Akwesasne in northern New York. Our tribe prides itself on 
being a good partner with our local, state, and federal 
leadership to promote the well-being of our community and to 
advance our collective legislative goals.
    Being one of the primary employers in our region, the Saint 
Regis Mohawk Tribe, Akwesasne Mohawk Casino, Mohawk Networks, 
and Akwesasne TV provide more than 1600 employment 
opportunities and over $52 million in salaries annually to the 
residents of northern New York. The success of our enterprises 
allows our tribe to further provide economic development 
opportunities and increased access to critical infrastructure.
    In 2009, the tribe was awarded $10 million through the 
American Recovery and Reinvestment Act, USDA's Broadband 
Initiative Program, to form Mohawk Networks, a tribally-owned 
telecom entity. By 2015, Mohawk Networks connected roughly 80 
percent of all homes in our territory to high-speed internet 
service.
    While we have seen the positive impacts this has brought to 
our community, our non-Native neighbors in the north country 
have not. Mohawk Networks estimates more than 100,000 homes in 
our neighboring counties have been overlooked. Twenty percent 
of homes are unable to access speeds greater than 6 megabytes 
per second, and 37 percent cannot afford the average monthly 
rate charge of $59.99.
    For this reason, we have decided to expand our broadband 
service to our neighbors in the surrounding non-tribal 
communities. The first phase of expansion into Lewis County 
through the activation of five towers has been made possible by 
a $6.4 million grant received in round two of the new New York 
Broadband Program. Discussions are currently underway with 
Clinton County legislators regarding the expansion of Mohawk 
Networks' broadband infrastructure to Clinton County by the end 
of 2018.
    A primary component of what allows the tribe to be 
competitive and keep our costs low is our utilization of 16 
towers throughout multiple surrounding counties and the 
reliability of our innovative technology. Working in 
conjunction with local stakeholders allows us to provide 
broadband services throughout the North Country and keep costs 
low. Currently, the average cost per household for the 
deployment of our wireless technology is $1700, far less than 
the traditional method of laying miles of fiber.
    While we are moving forward and making progress, several 
hurdles have presented themselves. These include:
    One, cumbersome grant requirements. While the tribe was 
fortunate to receive a $10 million grant, this only covered the 
initial implementation of the program and was received as 
reimbursements rather than direct funding. While we were able 
to cover these costs, this financial investment is difficult 
for many rural tribal communities who may lack successful 
economic development.
    Two, grant funds are not enough, and opportunities seem to 
be disappearing. Opportunities benefitting Indian country and 
rural America tend to be hit the hardest by budget cuts and are 
inconsistently funded. We were disappointed to see that the 
tribal building incentive for the Connect America Fund was not 
included in this year's application, despite active outreach 
from members of this subcommittee.
    Three, there is a lack of support and understanding about 
the capabilities of tribal telecom entities. When we applied 
for phase 1 of the new New York Broadband Program for the 
expansion of our broadband infrastructure into surrounding 
counties, we were beaten up by large telecom companies. And 
they have yet to expand broadband to our underserved 
communities. Fortunately, our phase 2 funding gives our 
neighbors equal access to broadband.
    With these hurdles in mind, the tribe recommends that the 
House Energy and Commerce Committee consider the following:
    One, provide set-asides for tribal and rural infrastructure 
projects. This funding presents the opportunity to transform 
infrastructure projects into sustainable solutions that address 
a critical gap in our nation's infrastructure.
    Two, support the passage of legislation that positively 
impacts Indian country. We request serious consideration of 
H.R. 1581, which increases access to telecommunication grants 
and services for programs in Indian country and other high-cost 
areas with a significant Native American population. This will 
give more tribes the opportunity to develop and expand 
broadband infrastructure in the way that we have.
    Three, encourage partnerships to reduce costs and increase 
access.
    Four, build upon existing infrastructure. We were happy to 
see the committee's consideration of broadband conduit 
installation and highway construction projects. This will 
greatly increase the potential for conductivity between rural 
towns.
    Thank you for taking the time to discuss broadband 
infrastructure on tribal lands and in rural America. The Saint 
Regis Mohawk Tribe looks forward to working with you to deploy 
broadband where it is needed most.
    [Speaking Native language.]
    [The prepared statement of Sub Chief Michael Conners 
follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Mrs. Blackburn. Thank you, Mr. Conners. He yields back.
    Mr. Murray, you are recognized for 5 minutes for your 
opening.

                 STATEMENT OF THOMAS A. MURRAY

    Mr. Murray. Thank you, Chairman Blackburn, Ranking Member 
Doyle, Members of the Subcommittee.
    I am Tam Murray. I am here today wearing two hats. I am a 
small tower developer right here, right across the river in 
Arlington, Virginia, and I am also the chairman of the Wireless 
Infrastructure Association, WIA.
    My firm, Community Wireless Structures, is geographically-
focused. We have developed towers in 10 Virginia counties, 
northern Virginia, and central Virginia. We are one of an 
estimated number of 600 small tower developers throughout this 
country who work on a local basis. They get towers built in 
Nashville, Pittsburgh, Kalamazoo, wherever it might be. There 
are 200,000 telecommunication structures that are used for 
broadband towers in this country, and I am proud to say that my 
firm has built 50 of those.
    So, I have been doing this for 20 years, and you have got 
to go back to 1996. So, what was the opportunity that I saw to 
leave my prior profession and come into this? It was one word: 
collocation. Collocation is the siting of multiple carriers on 
one telecommunication structure.
    1996 was a very different world. My cell phone was a brick 
bolted in the trunk of the car. The lowly flip-phone had not 
even been dreamed of, and carriers looked at infrastructure as 
a proprietary thing. Each was developing their own network. It 
wasn't unusual to come to an intersection and see three towers, 
each with one carrier on it.
    So, the business opportunity that I pursued was 
collocation. I approached Loudoun County. I said, this road, 
this Dulles Greenway that is being built, it is 12 miles; it 
could be 16-20 applications. How about my firm develops four 
sites, one at each interchange down the length of the Greenway. 
And it was a home run for all parties involved. The county 
decisionmakers, the local government was happy. So, it wasn't 
clutter at each interchange and there was service for the 
citizens of Loudoun; there was service for the carriers. They 
didn't have to duplicate the spending of cap ex on three 
towers. There was one tower that worked.
    So, what worked on the Greenway, we built more sites in 
Loudoun. Collocation has been used throughout the state of 
Virginia, throughout every state in the Union. It is a 
wonderful model. It is the envy of the world. And that is 
really how the small tower industry got started, and everyone 
else, all my colleague companies, if you will, throughout the 
country are building on the same model.
    I have three asks. One is federal lands, two is some 
expediency on tribal approvals, and the third is the small cell 
definitions.
    The first item, federal lands, really segues nicely with 
the Greenway. So, the Greenway, one of the special sauces, 
coming back to the McDonald's analogy, the special sauce on the 
Greenway was that we negotiated with one landlord to get four 
sites. Now, if you go to, Congressman Pallone mentioned the 
hardest corners to reach in a state, if you take a big piece of 
land that is owned by an agency, and a carrier or an 
infrastructure developer can approach that agency and secure 30 
sites or 20 sites, whatever it takes to cover that given piece 
of geography, that is a huge benefit to the development of 
infrastructure. Negotiating 30 different leases versus 
negotiating with one party is huge.
    So, we know that there is a draft federal lands bill. Tell 
us, WIA, what we can do to help push that along. That is really 
going to help the deployment of broadband.
    On tribal review, my firm has developed 50 towers. Two of 
those are inside the Beltway. Everyone would describe inside 
the Beltway as disturbed land. It is a great place to be and 
live and work, but this is not the great outdoors.
    And yet, our applications for towers inside the Beltway had 
to go through a tribal review. Now what we think, if those 
reviews could be done at less expense, there are fees from each 
tribe, and if it could be done expedited, somebody mentioned 
the term ``deemed granted,'' that would be wonderful. That will 
help broadband, too.
    My third point, 20 seconds, is small cells. Small cells are 
new technology. The challenge with new technologies is defining 
them. There are parties in this country that will say that 120 
feet is a small cell. It is not. That is hogwash. Our 
association, WIA, has studied this. A utility pole is 34 feet. 
Add 10 feet. Add a few antennas. You are at 50 feet. So, it is 
a very reasonable definition of small cells to say 50 feet or 
less. That should be expedited review. Above 50 feet, walks 
like a duck, quacks like a duck, it is a tower. It should be 
treated as a tower with the standard local responsible review.
    So, the federal lands, expediting the tribal, and the small 
cell definition are the ways that would be very much helpful.
    I welcome any questions after the panel is done.
    [The prepared statement of Thomas A. Murray follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. I thank you, sir. He yields back.
    Ms. Hovis, you are recognized for 5 minutes for your 
opening.

                  STATEMENT OF JOANNE S. HOVIS

    Ms. Hovis. Chairman Blackburn, Ranking Member Doyle, 
Members of the Subcommittee, good morning and thank you very 
much for inviting me to testify.
    I am Joanne Hovis. I am President of CTC Technology and 
Energy, and I am also CEO and co-founder of the Coalition for 
Local Internet Choice.
    I make the case today for including broadband, particularly 
in rural areas, among the infrastructure categories in any 
infrastructure investment program, and recommend particular 
public/private partnership and related mechanisms that can be 
included to increase the likelihood of the necessary capital 
flowing to the areas with the greatest needs.
    Broadband, like any other type of infrastructure, requires 
significant upfront capital for deployment of networks, and 
private capital will flow to areas where potential return is 
highest. In a number of densely-populated, higher-income areas, 
incumbent phone and cable companies have upgraded or are 
upgrading their networks to enable new services. A handful of 
these areas have also seen investments by new entrants seeking 
to outflank the incumbents. These are very fortunate 
communities, but metro area communities in general are more 
fortunate than rural because of the flow of private capital.
    In contrast, obviously, in less-densely-populated and 
lower-income areas, the pace of progress has been much slower. 
These areas offer lower returns on private investment and, 
therefore, have seen their economies stagnate.
    One of the ways in which we can improve these economics in 
rural areas is by leveraging state and local government 
capabilities. State and localities are increasingly motivated 
to incent private sector investment in next-generation 
broadband networks. States and localities have experience, 
capabilities, and assets that enable them to build broadband 
infrastructure that can be made available to the private sector 
for competitive services and innovation, with a public entity, 
building infrastructure and facilitating infrastructure, but 
uninvolved in the private sector role of operations and service 
delivery to the public.
    Alternatively, the state or locality can partner with the 
private sector for shared investment in private networks that 
secure public sector goals, such as service in rural areas that 
would maintain such critical practices as home-based business 
and home-based schooling.
    However, as we consider what might be coming in an 
infrastructure bill, the concern about the economics is that 
that infrastructure bill has to change and improve economics in 
those rural areas and at the local level. Based on my 
experience, I would say that even a combination of tax credits 
and public/private partnerships together would be insufficient 
to attract the necessary investment to rural areas.
    All things being equal, investors will go where the market 
is strongest, the returns are highest, the revenues are likely 
to be most robust. And in the case of public/private 
partnerships, capital will flow to where potential revenues are 
greatest.
    For this reason, I suggest that the stratgies considered 
for any infrastructure program include some of the following 
recommendations to make tax credits and public/private 
partnerships in rural areas more viable, attract them more to 
rural areas, as it were, more attractive to investors.
    First, create a financing support mechanism to reduce 
public/private partnership borrowing costs. Creating such 
mechanisms would make public/private partnerships more viable 
at modest cost to the Treasury. For example, federal 
contribution toward a reduction of interest costs would improve 
viability.
    Second, enable the use of tax-free municipal bonds to fund 
public infrastructure in public/private partnership situations 
or for least to private ISPs; thus, reducing municipal 
borrowing costs, enabling public/private partnerships and 
increasing project viability at modest cost.
    Third, enable transferability of tax benefits such that 
nonprofits and public entities can sell tax credits or other 
tax opportunities on the market; thus, making tax mechanisms 
more viable for areas that are of less interest for private 
capital.
    Fourth, carve out funding and other support for areas where 
the local economy has been impaired by technology change and 
globalization, and where broadband could have a 
disproportionate impact relative to cost on improving economic 
opportunity. And this, I think, aligns with my broader point 
that tax credits alone, all other things being equal, will not 
flow to the rural communities where private investment has not 
gone already.
    Finally, include Dig Once and construction efficiency 
strategies in other public/private partnership projects in 
order to capitalize on opportunities presented by construction. 
So, for example, envision a scenario of the reconstruction of a 
municipal water system through a Dig Once environment. Conduit 
for communications, fiber that could be utilized by private 
sector entities would be placed at the same time. At 
incremental cost, we would be building two networks, with the 
second network at a very low cost relative to what it would 
cost to build without that Dig Once insight. My written 
testimony includes some examples of such case studies.
    And thank you very much for your consideration.
    [The prepared statement of Joanne S. Hovis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Carlson, you are recognized for 5 minutes for your 
opening.

               STATEMENT OF LEROY T. CARLSON, JR.

    Mr. Carlson. Thank you, Chairman Blackburn and Ranking 
Member Doyle and Members of this Subcommittee.
    Now is the time to take bold action to improve mobile 
broadband networks in rural America. We at U.S. Cellular are 
excited that the FCC has now adopted a Mobility Fund Phase II 
order for further rural development of high-speed wireless 
broadband networks. We are also excited that Congress is 
considering additional infrastructure policies targeted for 
rural communities.
    It is clear to me that there is bipartisan realization that 
the funding being made available under the Mobility Fund II 
program is insufficient to achieve the goal of providing 
ubiquitous, high-quality mobile broadband to all Americans. For 
over a year, we have been discussing with Congress the fact 
that the FCC does not have standardized data showing the extent 
and quality of mobile broadband in rural America.
    The FCC Form 477 for mobile broadband data that was used to 
size Mobility Fund II, and which is planned to be used to 
determine the list of areas eligible for funding, is 
substantially flawed. It is flawed because instructions to 
carriers for filing Form 477 data do not produce maps of 
consistent data signal strength resolution. These filings also 
do not depict variations in signal strength, which dramatically 
affects the quality of service customers can expect.
    I have included in my filed testimony a propagation map of 
signal strength coverage from several of U.S. Cellular sites in 
the state of Tennessee which is representative of our rural 
coverage throughout the country. This map shows where service 
quality is comparable to urban areas, as well as areas where 
signal strength coverage is weaker.
    The FCC's Form 477 instructions do not produce maps like 
this. Instead, the data we file shows the entire area as served 
by broadband without distinguishing between strong coverage 
that allows for streaming of video and lesser coverage that 
does not. This FCC collection data flaw must be addressed 
before distributing Mobility Fund Phase II resources.
    We recommend that the FCC modify its rules for Form 477, so 
that every carrier is required to submit propagation maps at a 
standard negative 85 dbm level, which equates to typical 
wireless performance metrics that urban consumers experience 
today. Maps produced at this urban standard will increase the 
areas available for rural investment. If we were asked to 
produce these coverage maps for our service areas, we could so 
in a relatively short period of time and at a low cost.
    The FCC, thus far, has decided not to follow our 
recommendation to address flaws in the existing Form 477 data 
collection process. Instead, they have opted for a process by 
which carriers and others could challenge the coverage maps. We 
are concerned that this challenge process will place 
significant and tremendous burdens on wireless challengers, 
burdens that would not be required if the Form 477 rules were 
simply fixed.
    There is another issue that Congress should be very 
concerned about. The FCC intends to make no funds available for 
any rural area that has service today at 5 megabits per second, 
even though, going forward, the construction requirement for 
Mobility Fund II is 10 megabits per second. This will leave 
large 5 megabits per second rural areas lacking the high-
quality 10-megabits-per-second service, and with no investment 
available to them for up to a decade, causing them to fall 
farther behind the nation's urban areas.
    Action is needed. Once Congress and the FCC agree on a 
consistent methodology for gathering coverage and network 
performance data, all areas that are not currently receiving 
10-megabits-per-second service should be eligible for funding.
    Your leadership in making sure the FCC collects this data, 
so you know the scope of the challenge, will help target 
policies to be most effective. Better data will ensure scarce 
resources are used in areas where the greatest impact will be 
achieved.
    I appreciate this committee's continued leadership on these 
issues, and we look forward to helping you achieve your 
objectives.
    Thank you for the opportunity to be with you today.
    [The prepared statement of LeRoy T. Carlson, Jr. follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. Thank you, sir, and that concludes the 
testimony from our panel. We are going to move to questions. I 
will begin by recognizing myself for 5 minutes for questions.
    Mr. Berry, I want to come to you first. We talked a lot 
about data. We agree with you and, Mr. Carlson, with you that 
the data is not being utilized as it should be. Looking at the 
Tennessee map, that area with nothing, that is in my district. 
And so, unlike Mr. Loebsack, I am out there. I can tell you 
where the signal drops.
    And I would like for you just to comment on data for a 
second. And then, let's go talk about the USF because we have 
had a lot of hearings and looked at USF and the problems that 
are there, including fraud. We know that that exists. And I 
want you to comment on a couple of things.
    Should we be looking to do better through the USF? Should 
we be looking to do something different other than the USF? 
Should the USF be expanded to include a grant-making operation 
or should the federal government be looking to take on this 
burden? So, if you will comment on the utilization and the 
application for USF and, then, a couple of comments about data?
    Mr. Berry. Thank you, Chairman.
    Well, the USF, it is a well-recognized, well-used mechanism 
that has encouraged broadband buildout throughout the United 
States for a long time. It is a process that we are familiar 
with. Does it need to be improved? I think it does. I think 
that mobile broadband, i.e., the Mobility II, could be 
substantially enhanced in terms of dollars committed to 
mobility.
    You look at it, and I think in Mr. Carlson's testimony, 
very clearly, 87 percent of the United States, of the citizens 
in the United States, do not have 10-1 megabyte speed. If you 
look at 47 to 49 percent of the households in the United States 
are wireless-only households, but, yet, the mobile broadband 
fund, the Mobility II Fund, is substantially less than what is 
currently provided on the wire-line side.
    I am not saying that you don't need wire-line and wireless, 
but I think we can do a better job of providing more funds to 
Mobility II, because the facts are that in many instances, 
especially those economically-challenged, they are using their 
mobile phones as their access to the internet. And the FCC has 
a process, and if we can get the data correct, if they can 
actually get the numbers and the knowledge of where there is 
coverage and where there is not--I remember when I met with you 
and showed you the FCC data of Tennessee, and you took one look 
at it and said, ``That's not right.'' Well, if it is that 
obvious to everyone that travels their district, it is that 
obvious to your constituents. I think we can do a much better 
job, as Mr. Carlson said. And the Mobility II Fund could be not 
only expanded, but it could handle additional revenue that 
would be targeted in a very targeted fashion for unserved and 
underserved areas.
    Mrs. Blackburn. OK. Let me stay with you and, Mr. Carlson, 
I am going to bring you in on this. Both of you talked in your 
testimony about barriers for deployment and moving past some of 
these barriers, and how deployment will help with investment 
and education and economic development, all of those components 
we want to see that I call quality of life.
    And what I would like for you to comment on is kind of 
next-generation services and next-generation deployment. What 
are you all investing in? What are you looking toward? If you 
could get rid of some of these barriers to deployment, what 
additionally would you be able to do? Where are you going next?
    Mr. Berry. Do you want me to----
    Mrs. Blackburn. Yes, go ahead.
    Mr. Berry. My members tell me that, No. 1, the job isn't 
done; that we are going to build 5G services on top of 4G LTE 
and VoLTE. So, the first priority is coverage. If you don't 
have a signal and if you don't have access to a wireless signal 
to do voice or text or data, then it is hard to get to the next 
generation.
    So, I think if we don't get to 4G LTE and VoLTE, get to an 
IP network, then your ability to get to a 5G IoT, Internet of 
Things, connectivity is extremely impaired. And I would note 
that in rural America industrial IoT probably has the greatest 
promise for economic growth and sustainability for those rural 
areas to bring new jobs in. And I think that is where we have 
to finish the job that we have started and, then, I think we 
will be ready for the 5G world.
    Mrs. Blackburn. Mr. Carlson?
    Mr. Carlson. Yes, I would just like to emphasize the 
education aspect of 4G and very high-quality 4G signals. A 
student who wants to go onto the internet and, let's say they 
are interested in history. Maybe they want to look at history 
of World War II and they want to look at movies about what 
happened in World War II. They won't be able to download those 
movies in a satisfactory state if they don't get that signal.
    And they need to get that signal at home. They need to be 
able to get that signal in the backseat of the car when their 
parent is driving them to school or driving them somewhere 
else. They need to get the signal. They shouldn't be forced to 
go to a local library, which may be 20-30 minutes away, to get 
a signal, which is only open a certain number of hours a day.
     Students need full access to a high-speed signal. I 
mentioned the 10 megabits per second. That is today's urban 
standard. The urban standard I believe is growing about 15 
percent per year. So, that doubles in five years. So, five 
years from now, it is going to be 20 megabits per second. We 
need to get a strong signal out to all of rural America today, 
so that rural America's children can be educated to compete in 
the modern world.
    Mrs. Blackburn. My time has expired. Mr. Doyle, you are 
recognized for 5 minutes for questions.
    Mr. Doyle. Thank you.
    Well, let me just stay on that for a second, Mr. Carlson. 
Tell me, what challenges do you face in getting access to 
affordable backhaul for cell sites?
    Mr. Carlson. Well, affordable backhaul for cell sites is a 
big challenge. We many times have to put in backhaul ourselves 
to cell towers that we put up because they are in remote areas. 
And we have to lay in sometimes even roads. I mean, there was 
one case where we even had to have a team of horses. We 
couldn't get roads in. We had to have a team of horses pulling 
a fiberoptic cable.
    So, it is a cost element, but it is also an access element. 
I think the proposed draft that would say Dig Once I think is 
an excellent solution to allowing fiberoptic cable to run under 
highways that are being built, so that that kind of backhaul 
could be better produced.
    We need all the help we can get in terms of backhaul. 
Siting for cell sites is a big issue. We connect a lot of our 
cell sites with microwave. So, getting siting and approvals 
more rapidly to get those cells built would be great.
    Mr. Doyle. Yes. I think access to affordable backhauls, 
that is a real barrier to deployment, and we need to work on 
that.
    Mr. Berry, tell me this. In your written testimony you say 
in some cases tax credits may not go far enough to foster 
infrastructure investment. Can you explain why tax credits 
alone won't be able to get the job done?
    Mr. Berry. Thank you, Congress.
    And I think Ms. Hovis also addressed that issue. You know, 
if you have tax credits, you have to assume that at some point 
in time you can actually make a profit at what you are doing. 
So, the tax credit actually helps.
    I think one of the innovative ideas that has been suggested 
is maybe those grants or those USF funds could be non-taxable, 
so that you could actually increase the amount of value of the 
contribution by 40 percent, 35-40 percent, because that is 
essentially what Uncle Sam takes out of the grant to USF, to a 
USF Mobility II entity.
    In rural areas you are barely meeting an economic model. 
And so, you are putting enormous pressure on the private sector 
to fully fund or fully support a network. And accelerated 
depreciation, immediate acceleration of depreciation might be 
helpful. But the fact of the matter is, the economic model in 
many of these areas, it is so critical because there is not a 
great----
    Mr. Doyle. Yes, there is not a strong case to make.
    Mr. Berry. There is not a strong case for the model, for 
the economic model, to begin with.
    Mr. Doyle. Thank you.
    Ms. Hovis, in your testimony you talked about some of the 
benefits of public/private partnerships in enabling 
municipalities to address a number of the challenges they face 
in getting their communities connected. And you have worked 
with a number of these communities. But I am aware in a number 
of states they have passed laws really to prevent 
municipalities from engaging in these types of partnerships.
    What do municipalities lose out on when they are denied 
this option, and what can Congress do to help that situation?
    Ms. Hovis. Thank you, Ranking Member Doyle.
    What exists in a number of these states are various kinds 
of barriers that are opposed to allowing collaboration at the 
local level between public and private entities. I think many 
of these laws are frequently cast as supposedly protecting 
private sector opportunity, when, in fact, what they frequently 
do is tie the hands of local communities to work with the 
private sector to achieve better broadband outcomes.
    In my experience, there are hundreds of communities 
throughout the country, thousands of communities who are 
looking for ways to enable to private sector opportunity around 
broadband and to attract private capital and to work with the 
private sector to improve the broadband environment. And when 
we tie their hands with regard to, for example, building and 
leasing public assets, such as fiber or conduit, and son, we 
are removing from the equation one incredibly important player. 
And that seems to me very unfortunate. And frankly, it is not 
in the national interest. It would seem to me, also, that it 
subverts all of the goals that we all share here, which is 
better broadband, particularly for rural communities and 
communities that have been left out.
    Mr. Doyle. Yes, I couldn't agree with that more. Thank you.
    I see my time is almost up, so I will yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Shimkus, for 5 minutes.
    Mr. Shimkus. Thank you, Madam Chairman.
    This has been a great hearing, and I appreciate your time. 
And I have written a lot of notes.
    What struck me, though, is, as you were talking about the 
high speed and stuff, usually, historically, members would say, 
``Oh, I need this information,'' ``I need that information,'' 
and we would turn back to our staff. But now, we are all 
gathering, I was looking up National Forests, Mr. Murray, just 
to find out, I have the Shawnee National Forest, so I was 
trying to find out, well, what is the National Forest around. I 
know I have got the land between the lakes, not a National 
Forest, but it is a government federal land in Kentucky. It got 
the Hoosier National Forest in Indiana.
    Of course, these National Forest areas, especially when you 
go out West, they are the size of states. So, I think you just 
make a compelling argument that they ought to have one 
application to get sited in National Forests. Maybe through 30 
different locations, do it one time, because that is an area 
that is tough for my constituents to get signals in the Shawnee 
National Forest. It is just has been a difficult process.
    So, I wrote down that note. I think that is a good thing to 
propose. And I don't know if we would have to work with the 
Resources Committee on that, but that is why we have this 
testimony. So, I appreciate that comment.
    The other thing, it is really kind of Ms. Hovis, but it is 
also Mr. Connors, because I was intrigued. There is concern 
when government grants or low-interest loans go in to compete 
against established providers. Even though maybe they are not 
serving at the speed that we want, that it is unfair for tax 
dollars to go to compete against a private sector who is trying 
to meet that need.
    So, we are talking on both sides. We want to incentivize 
people to deploy, but, then, we incentive a competitor through 
tax credits or something to compete against the incumbent, 
which makes it difficult.
    Mr. Connors, in your testimony you talk about going to 
North County, talking about them not having the same access. A 
hundred thousand have been overlooked and they are speeds no 
greater than 6 megabits. And then, in your testimony you are 
talking about $24 million in grants received through round two 
of a state, is it a state buildout?
    Mr. Connors. State, yes.
    Mr. Shimkus. Which I think is great because we want 
everybody to have high speed. But is there someone trying to 
provide service in that North County area?
    Mr. Connors. Well, the North Country region is where we 
are. We are providing the service on our Akwesasne territory. 
What we are doing is we are branching out, but we are right now 
in Lewis County, which is about an hour-and-a-half away. They 
came to us looking for additional services based on how 
successful we were in our territory.
    Mr. Shimkus. But there is no one trying to provide service 
there, right? I see people shaking their heads behind you. But 
there is no one trying to provide service there now?
    Mr. Connors. They have service, but it is not adequate. So, 
they are getting our quality service there. And we won round 
two of the state grant, and that is providing additional 
service in Lewis County.
    Mr. Shimkus. Which is great, and I am not saying what you 
are doing but there is a concern that if you are a provider who 
is trying to provide in that area, and then, you use state tax 
credits or grants or stimulus dollars. We have seen this before 
in the ARRA where people came in, put in a bid, got federal 
dollars. They didn't have the numbers to support an operating 
system, and that system went for lacking.
    And so, I think there is a balance between trying to ensure 
that, if we are going to incentivize using tax dollars, that 
there is a real need and that we are not competing against an 
incumbent who is trying to provide the service at the same 
time. Does that make sense?
    Mr. Connors. Yes. In our area the service providers are 
only going down the main hub, the main street area. What we are 
doing is we are branching off of that, going into the unserved 
areas.
    Mr. Shimkus. And that is the importance of having proper 
maps, to identify served versus unserved. And as we will find, 
we still don't have that.
    Mr. Connors. That is right.
    Mr. Shimkus. And I had much more I wanted to talk about, 
but my time pretty much has expired.
    Madam Chairman, I thank you and I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Loebsack, you are recognized.
    Mr. Loebsack. Thank you, Madam Chair.
    Well, as I noted in my opening statement, broadband access 
is critical for rural communities. I am going to show that map 
one more time. OK? It claims that, basically, all of Iowa is 
covered, but that is not true.
    And I really appreciate the Chair's comments about this as 
well. So many of us on this committee really struggle with this 
issue, and it is a bipartisan issue. We live in these rural 
areas and we get dropped calls. Our constituents get dropped, 
all the things that are happening out there in rural America. 
And it really does bring us together on a bipartisan basis. 
That is why I appreciate this hearing today.
    You know, it is a jobs issue, too. There is no question 
about that, no matter how you look at it. It is a survival 
issue in many ways, I think, for rural communities around this 
country.
    I have often said that, if we can't get proper coverage in 
places like rural Iowa, but rural anywhere, we are not going to 
have these communities survive into the future. It can provide 
them economic growth. It can help provide the jobs that we 
really need in these areas. But, without it, these places are 
going to continue to struggle and a lot of them are simply 
going to wither and die on the vine in some ways. I hate to be 
overly dramatic, but I think it really is that dramatic. I 
think that is the future that we are talking about here. I 
mean, it comes down to, as I said, dollars and data.
    Mr. Carlson, I appreciate, of course, your explanation and 
comments regarding the challenges raised by using the current 
Form 477 data to determine wireless coverage and USF 
eligibility. And I mentioned my bill that I introduced, H.R. 
1546, the Rural Wireless Act, to require FCC to improve data 
collection for developing these coverage maps. Because, really, 
it is the case; it is kind of, if it is garbage in, it is going 
to be garbage out, basically.
    Did you want to mention anything about my bill? Hopefully, 
you have had a chance to look at that as well.
    Mr. Carlson. Yes, Congressman, I have had a chance to read 
your bill, and it is an excellent bill. I applaud you for 
getting the process started, because this is something we need, 
to get good data, so that rural America can get policies made 
by Congress and by the FCC that is data-driven, that is 
accurate, and that will give rural citizens not the chance, but 
to give them the opportunity to have services that are 
reasonable comparable to those that exist in rural areas.
    We would be delighted to work with you to make sure that 
the bill really gets the FCC to do what you want to get them to 
do.
    Mr. Loebsack. Thank you so much, and I do appreciate your 
testimony.
    Obviously, Mr. Berry, the same question.
    Mr. Berry. Absolutely, CCA strongly supports your 
legislation and really look forward to seeing a standard that 
is a usable standard that really provides guidance to the FCC 
for the future.
    Mr. Loebsack. Thank you.
    Mr. Berry. Thank you.
    Mr. Loebsack. Thanks to both of you. And, look, as Co-Chair 
of the Rural Broadband Caucus, you mentioned, I think, Mr. 
Berry, that a number of us sent a letter to the President 
advocating for the inclusion of rural broadband in any 
infrastructure package. I think we are all agreed that that 
ought to be the case.
    But the policies we are talking about today are a good 
first step. There was bipartisan consensus surrounding many of 
these issues last Congress, but they only get us so far. For 
example, tribal lands, we all want more coverage in tribal 
lands, but in Iowa that is only .3 percent of our land. So, 
that is important, but we have got to go further than that.
    I want to make sure that whatever we do makes a difference 
in places like Iowa. And there is no doubt, of course, that we 
do need real direct investments for fixed and mobile broadband, 
as well as, if we are really going to get the kind of broadband 
we need in rural areas. And I think this whole funding question 
is something we are going to be struggling with. We are going 
to have more time to discuss that. But, clearly, it is going to 
have to be some kind of a balance, some kind of a mix of 
different mechanisms going forward. And I am looking forward to 
having that discussion in this committee and, then, beyond as 
well.
    But any of you want to have any further comments about 
funding and how we go forward on this? I know we have heard 
from you, Ms. Hovis. Any others?
    Mr. Carlson. I could make a comment. As I said, I don't 
think the funding that is there today in Mobility Fund II is 
sufficient to bring rural America up to urban quality 
standards. And I think when we get the accurate maps, all of us 
will see how short that funding is. But that is OK. It is OK to 
see the problem as it really is because, then, we can decide 
where we should start on the problem and how we should think 
about the size of broadband infrastructure spending, as we look 
forward to working on a bipartisan basis to get that 
infrastructure spending put in place.
    Mr. Loebsack. Thank you, Mr. Carlson.
    Thanks to all of you. If you would like to respond in 
writing, that would be wonderful. I have reached the end of my 
5 minutes. I certainly don't want to ask the Chair to go over.
    Thank you, Madam Chair. Thank you all.
    Mrs. Blackburn. Thank you. He yields back.
    Mr. Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Madam Chair.
    You know, before I start my questions, I would just like to 
point out to our committee and to our panelists the importance, 
as we migrate from 4G to 5G, it is going to be very important 
that we change siting rules at the federal and local levels for 
wireless carriers because that modernization is needed, so that 
it is not going to take years to site something the size of a 
pizza box on a tower or on a fixture, and that the rent to the 
carriers is reasonable, so that we can begin to see some real 
progress in expanding broadband coverage throughout or internet 
coverage throughout rural areas.
    With that, Mr. Murray, you highlight what appears to be a 
success story with regard to the Navy shortening the timeframe 
for siting of commercial towers on Navy and Marine 
installations. Are we to understand that this success has not 
bee replicated across DoD and the other branches of Service?
    Mr. Murray. I am going to defer to the written record. The 
Wireless Infrastructure Association, they will dig deeper into 
that. I do know, just from my discussions with them, that 
certain agencies are receptive; others aren't. Much of the 
discussion of federal lands, you know, we think of, although 
Iowa doesn't have many federal, well, it doesn't have many 
Indian lands, but there are lots of federal lands even in just 
Fairfax, Virginia. I guess some agencies are more receptive 
than others.
    Mr. Johnson. Do military personnel use their personal 
phones to contact public safety services when on base? Do you 
know?
    Mr. Murray. I don't know the answer to that.
    Mr. Johnson. Mr. Berry, you are shaking your head.
    Mr. Berry. Yes, and I think it does go a lot to the manager 
of the facility or the federal land itself, and it is even for 
DoD. I have been called by commanders of a couple of Air Force 
bases asking which carriers in the area can they work with to 
ensure that their base residents can have access to wireless. 
And I think we have introduced them to several ideas: that not 
only can you get access to quality broadband wireless, but they 
could actually utilize that even in some of their deployment 
scenarios on base. And I don't think that many, especially in 
DoD, were under the impression that they could do that and not 
interfere with the tactical communications systems that they 
have and utilize in deployment.
    And so, education is part of the issue. At least the couple 
of Air Force generals I spoke to were very interested in 
sharing that they had an improved methodology.
    Mr. Johnson. I can tell you I spent 26-and-a-half years in 
the Air Force, and I was an IT officer. I know what my response 
would be. It would be let's get her done. You know, make it as 
quick as we can.
    Mr. Murray, also, we have a whole system of infrastructure 
siting rules at the federal as well as the local level that 
probably made sense for 200-foot macro-wireless towers. But 
does it make sense to use rules designed for macro-towers when 
wireless carriers will be rolling out small cells, as many as 
300,000, around the country? Don't we need to update rules for 
updated technologies?
    Mr. Murray. Yes, we absolutely do. The networks today, they 
are a combination of solutions. If you drive to Baltimore, the 
phone works in the Baltimore Tunnel and that is a distributed 
antenna system. If you have a good signal at the Metro stop, it 
is through DAS.
    A good deal of the discussion this morning is coverage in 
rural areas. The macro-site, the tall tower, 199-foot monopole 
or a lattice tower, that still has a long, healthy future in 
this country. But the solution is going to be a combination of 
solutions, a Swiss Army knife, if you will.
    Mr. Johnson. Yes.
    Mr. Murray. As far as the rules go, no, we have a 
challenge. The small cell, and there is an entity that is 
claiming that a small cell is 120 feet. I mean, there has to be 
respect for the standards that have been in place for 30 years.
    In our thought, you take a utility pole. You add 10 feet. 
You add some antennas. That is roughly 50 feet. And that is a 
good definition of a small cell. That and stature less than 
that we believe should be expedited in some fashion.
    But local control, responsible local approval is a good 
idea. A pet peeve of mine is I would love to see Congress fund 
the FCC more on the proceeding that they are doing on health. I 
can't tell you how many very difficult hearings I have been 
through, hearings to get a single tower approved on a given 
night. And there is a tremendous fear among a lot of citizens 
who live near a tower application about the dangers of this, 
and there really aren't.
    There is all sorts of data. But the FCC was studying that, 
starting in 2013. We would like, I, as a tower developer, and 
those who develop new towers would like to see more information 
updated by the FCC on the safety of living within the vicinity 
of wireless infrastructure.
    Mr. Johnson. OK. Well, thank you, Mr. Murray.
    I am sorry for going over, Madam Chair. I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Ms. Matsui, you are recognized for 5 minutes.
    Ms. Matsui. Thank you very much, Madam Chairman.
    I want to follow along on some of these siting concerns. We 
have heard that it often takes a long time for a broadband 
infrastructure company to gain the relevant approvals necessary 
to site the infrastructure on federal land. In addition, we 
have heard that lease terms are short for siting such 
infrastructure, resulting in the situation where broadband 
developers that site on government property are frequently 
renegotiating.
    And the discussion draft under consideration today seeks to 
increase some of the lease terms that some agencies offer. Do 
you think, asking Mr. Berry, this provision strikes the right 
balance?
    Mr. Berry. I think definitely we need to address it. And I 
can tell you individual horror stories about a carrier that got 
approval for Mobility Fund II monies to build towers on a Park 
Service property, and the timeframe that the FCC set to 
actually build the tower expired before the Park Service would 
actually give them a license, a permit. Even though in one 
instance the federal entity asked the FCC to grant an 
extension, the extension wasn't granted. So, we have those 
problems that constantly occur, and it would be very helpful to 
have a little more flexibility on both the federal entities' 
sides.
    Ms. Matsui. OK. So, we need to ensure that we enable more 
timely broadband deployment then?
    Mr. Berry. And another thing we are learning is that the 
master plans that many of these agencies deal with, like BLM, 
the Department of Interior, the Department of Defense, Forest 
Service, are 20-year master plans. And so, how do you get in 
and chance a 20-year master plan when the agency says, ``No, we 
are not going to really address that for another 5 years.''?
    Ms. Matsui. Oh, OK.
    Mr. Berry. And I think they did that in an Executive Order. 
Ensuring that those types of services, i.e., wireless and 
telecommunications services, is an acceptable, approved 
activity on federal property will go a long way to helping some 
of these land managers that do want to find solutions.
    Ms. Matsui. OK. One of the discussion drafts that were 
offered today would create an inventory of federal property 
that could be used to help deploy broadband infrastructure. In 
addition, this draft would also permit local and municipal 
governments to add their existing facilities to the inventory, 
so they might be better utilized by broadband developers.
    This question is to Mr. Berry and Mr. Murray. Would your 
members be interested in having their infrastructure added to 
such an inventory?
    Mr. Berry. I think many of our members would like to have 
the knowledge that their network is there. Obviously, you get 
into concerns about the type of facility or the type of access, 
and there are different rules for different types of broadband 
services and mobility services. So, that would always be a 
concern.
    Ms. Matsui. Sure.
    Mr. Murray?
    Mr. Murray. Yes. There are many small tower developers who 
are already in partnerships with non-private entities. In 
Fairfax County, for example, a competitor of ours has made an 
arrangement with the public schools. So, they have developed 
tower sites at public schools and replaced light poles, and 
that has worked beautifully.
    I will throw out that we at the Wireless Infrastructure 
Association are tremendously in favor of longer lease terms on 
these federal lands. I am local, and I welcome anyone in the 
room, if you want to see a tower site and visit an actual 
telecommunications tower, I will set the tour up.
    But, when you see a tower, you realize, holy mackerel, this 
thing needs to be here for a long time. It is a huge amount of 
steel. There are utilities coming in. There is fiber coming in. 
This is not something, ``Oh, well, we'll just move it somewhere 
else in 4 years.'' I mean, there has to be long duration.
    Sorry for the time run.
    Ms. Matsui. No. Is there currently coordination between 
federal and state and local governments? And would this 
discussion draft help foster this sort of cooperation? Anyone 
here?
    Mr. Berry. There is some coordination, but not nearly 
enough. I think the legislation that you are considering would 
facilitate that greatly.
    Ms. Matsui. OK. Mr. Murray?
    Mr. Murray. The industry, the carriers have all sorts of 
holes in their network. This is, again, from the macro-side 
perspective.
    Ms. Matsui. Right.
    Mr. Murray. And they hire consultants to go out and try to 
find places where they can plug these holes. So, the 
consultants are aware of this county is receptive; this other 
county is not. But the general perception, at least among my 
colleagues nationwide, is that the federal lands, I mean, good 
luck; I will see you in four years. I mean, there are so many 
hurdles, if you will. But I am not aware of good coordination 
between local, state, and federal.
    Ms. Matsui. OK, fine. I have run out of time. So, I yield 
back. Thank you.
    Mrs. Blackburn. Thank you.
    Mr. Olson, for 5 minutes.
    Mr. Olson. I thank the Chair.
    And welcome to our five witnesses.
    My first question will be for your, Mr. Carlson, and you, 
Mr. Berry. And this morning I want to empower you all. And so, 
we are going to trade places.
    Like many Americans, you are about to move to Texas.
    [Laughter.]
    You are coming there most at income tax zero and the cheap 
price for a gallon of gasoline, just around $2. You may move to 
Plano, Texas, Congressman Sam Johnson's district. Sam is 
retiring. You want to run for Congress, join that massive fray 
that will happen November of 2018.
    Plano is kind of urban, so a little different concerns 
there. But my question is, you are having a townhall. I am a 
constituent. Broadband is the issue. I will ask, ``What can 
Congress do, what would you do to improve broadband access? 
What is the FCC's role? And can you eliminate rules and other 
issues, as a Congressman?''
    So, Mr. Carlson, you first.
    Mr. Carlson. Oh, yes, thank you for asking the question.
    Well, the first thing, you can see from my speech, that I 
would say needs to be done is the FCC needs to be encouraged or 
a bill needs to be passed requiring them to collect the proper 
data about what the coverage really is in Plano and the 
surrounding area, because I am sure Plano depends on its 
surrounding rural communities. It is a two-way street, right? 
Rural America supports the urban areas, and vice versa. So, 
that is the first thing.
    And then, I would want to find out whether or not the FCC 
had allocated enough funds to accomplish the job in terms of 
bringing urban quality service out to Plano and the area that 
surrounds it. And if the FCC had not contemplated enough funds 
to do that throughout America, including the great state of 
Texas, I would want to find out how we could get that funding, 
whether in the broadband or the infrastructure bill that is 
being talked about, bipartisan, which is a great thing, or 
otherwise.
    Because the job needs to get done. Broadband service is 
critical infrastructure for life in America today, in Plano, 
and in all communities like Plano throughout this great nation.
    Mr. Olson. ``Congressman,'' Mr. Berry, your suggestions? 
FCC, Congress, and other things we connect?
    Mr. Berry. Well, I am going to assume that Congressman 
Olson has already established that we need a new set of data at 
the FCC, and you fix that by the time I get there.
    But what I hope is that the other issue is that we will 
adequately fund the broadband deployment and broadband coverage 
in rural America. I mean, it is an issue of jobs and economic 
stability in rural America. If you want someone in the back 40 
in Texas to be able to compete with somebody in Tokyo or Korea 
or in China, you have got to have access to connectivity and 
you have got to have an ability to experience and engage in the 
economy, the global economy that is going on. That is what is 
going to keep your constituents in their district and not have 
to move to LA.
    Mr. Olson. Well, welcome, my friends, to Texas. Howdy, you 
all.
    [Laughter.]
    The last question, Mr. Carlson, I work for Texas 22. It is 
a suburban Houston district, mostly suburbs, but probably one-
quarter agriculture. But they have good access to broadband. 
Ninety-two percent are served; 2.5 percent are underserved, and 
5.6 percent are unserved.
    But I am intrigued by the cost savings for cities and towns 
that come from 5G services by adapting a ``smart community''. 
For instance, a Deloitte study found that the adaption of smart 
grid for 5G could create $1.8 trillion in revenues for our 
economy. How do we educate our cities, both urban and rural, 
how to access this, because this is lots of jobs, lots of 
money? Any suggestions, Mr. Carlson?
    Mr. Carlson. Well, 5G is coming. I just had a chance to go 
to the Mobile World Congress. So, I would suggest that, if your 
city is big enough to fund a trip to next year's Mobile World 
Congress in Barcelona, you take the appropriate leader or 
leaders of the city over to that Congress and you see what the 
reality is that is being talked about, because it is going to 
be coming in the year 2020 for commercial deployment for 
mobility. It is going to be real.
    It is already going to be in Korea in 2018 at the Olympics 
and in Japan in the Olympics in 2019. It will be here. It is 
mostly going to be an urban phenomena at the beginning, but it 
is going to be very important in increasing people's speeds, so 
that downloading a movie or getting access to a big data file 
will be almost instantaneous.
    It is a wonderful development, and it needs to be spread 
throughout the country, but people need to be educated as to 
what its potentiality is. One way to do it is to call in the 
vendors, people like Ericsson, Nokia, Samsung. Call them in and 
they will be glad to make a presentation, I think, to the city 
leaders about what 5G could mean for their city. They all want 
to get into the smart city business. So, invite them in and 
have them pitch you on it.
    Mr. Olson. Thank you, sir.
    I am out of time. I yield back. Thank you so much.
    Mrs. Blackburn. The gentleman yields back.
    Mr. McNerney, you are next in the queue.
    Mr. McNerney. I was going to yield my place to Mr. Ruiz, 
Dr. Ruiz.
    Mrs. Blackburn. Dr. Ruiz, you are recognized to take his 
time.
    Mr. Ruiz. Thank you very much. Thank you, Madam Chair. 
Thank you, Mr. McNerney.
    I want to take a moment, step back, and highlight the human 
story behind the deployment of broadband infrastructure. 
Stories like that of the whole Indian tribe located in 
northwestern Washington State where the reservation and 
surrounding communities completely lack access to broadband 
internet; like the story of the Torres Martinez tribe in my 
district and eastern parts of the Coachella Valley in rural 
areas where they also lack access to broadband internet.
    For them, this means that students are forced to take a bus 
over an hour away to complete their mandatory testing. Local 
residents cannot take advantage of educational opportunities, 
such as online college courses and career development classes, 
and the tribal governments cannot access webinars and online 
technical assistance, resources which are vital to successfully 
applying for federal grants and programs.
    Unemployed individuals cannot access the internet for job 
opportunities. Hospitals cannot build their ITs and the Indian 
Health Services cannot provide care because they don't have the 
internet support. And residents do not have access to the 
internet to learn about public health measures to better their 
health care.
    This is just one story, but part of a bigger picture where 
broadband deployment on tribal lands continues to lag behind 
that of the rest of the nation. And that is why today's hearing 
is so important, because supporting broadband infrastructure on 
tribal land is a part of supporting our federal trust 
responsibility.
    But we have a responsibility to do more than take testimony 
on this issue. We must act and pass legislation to help make 
access to broadband a reality for all. And that is why I 
introduced the Tribal Digital Access Act, to help close the 
divide throughout Indian country, and why I am very pleased 
that we invited the Saint Regis Mohawk Tribe today to speak on 
behalf of their tribe that has successfully deployed broadband 
in rural New York.
    So, this question is for Sub-chief Michael Connors. It is 
good to see you today, and thank you for taking the time to 
testify.
    The Saint Regis Mohawk Tribe has worked hard to provide 
broadband internet service to its members and now the 
surrounding community. What is the biggest challenge the tribe 
has faced in getting to this point and developing further?
    Mr. Connors. Thank you for having us today, Dr. Ruiz.
    Our biggest challenge has been the sustainability of the 
broadband operations on territory. We received the grant in 
2009, and over the next several years it was deployed and the 
fiber was laid out on territory. In the past several years, we 
have learned that just being on territory is not a successful 
business model for us. We have had to expand off territory.
    We are able to provide a small amount of funding for some 
of the expansion, but we couldn't do it all. That is why we got 
to apply for the New York State grants. We didn't get round 
one, but we received round two. So, that off-territory 
expansion is coming in the future, and that will get us towards 
a sustainable business model.
    Mr. Ruiz. So, it sounds like a win/win situation where not 
only you can provide broadband for tribal members, but the 
surrounding non-tribal lands as well, where the incentives 
currently are not there to provide the broadband 
infrastructure. So, if we invest in tribal communities, the 
tribes will have broadband infrastructure and the neighboring 
communities will also have broadband infrastructure, is that 
correct?
    Mr. Connors. Correct. In our testimony, we talked about 
Lewis County and Clinton County. The counties are coming to us. 
Based on our success, they are coming to us looking for the 
expansion, and that is how we received the grants in Lewis 
County, because they were lobbying their own representatives in 
their area to further their expansion.
    Mr. Ruiz. Can you give me an example of how this has helped 
tribal members or the tribe in your area?
    Mr. Connors. Well, just some small examples are educational 
opportunities, economic development opportunities, and 
employment. In today's world, education has all gone digital 
and online, and our students are being able to have their 
educational opportunities at home, something as small as emails 
going back and forth with the teachers at the schools.
    Mr. Ruiz. Thank you.
    There is a classroom in my district that has to print a 
YouTube video from home. Teachers do this and they show a 
YouTube video on sheets of paper and try to narrate what it is 
about. So, this is unacceptable in schools throughout our 
nation.
    Mr. Berry, can you shed light on some of your successful 
practices? I understand you have tribal members as part of your 
organization. Can you talk about how working with tribes has 
been a success for you?
    Mr. Berry. Yes, and thank you for the question, 
Congressman.
    Yes. Yes, we do. We have several tribal carriers that are 
members of the CCA. We also have several carriers that 
specialize in providing not only rural, but services to tribal 
lands. And I think they have been very successful working with 
the tribes.
    Again, this is an investment opportunity, and many of the 
tribes understand that they have to get to that coverage area. 
I know that we talk a little about 5G all the time, but when 
you don't have a signal and you don't have coverage, your first 
priority is to ensure that you have the capability.
    And I think in the rural areas in the tribal lands they 
have successfully brought in services in economical ways. What 
you will learn is most of the rural and small carriers face the 
same challenges, whether it is on a tribal land or not. The 
1996 act clearly identified reasonable, similar services should 
be the goal, and then, Congress has already stated that.
    I think tribal lands have for far too long have not had the 
resources directed, not only through the Mobility Fund, but 
through the other funds at the FCC. I think that is one area 
that we need to address.
    Mr. Ruiz. I think we can work in a bipartisan fashion to 
pass the Tribal Digital Access Act and get the resources that 
they need.
    Thank you.
    Mrs. Blackburn. Yields back.
    Mr. Lance, for 5 minutes.
    Mr. Lance. Thank you very much, Madam Chair.
    Mr. Berry and Mr. Carlson, 5G is estimated by Accenture to 
bring over $67 million in GDP growth and 409 jobs to the 
district I serve over the next 7 years. However, I understand 
that, in order to realize these benefits fully, there will need 
to be considerable investment in physical infrastructure to 
deploy 5G small cells. In your expert opinion, how are the 
barriers to 5G deployment unique and how are they similar to 
the barriers we still face for 4G LTE deployment?
    Mr. Berry. Well, first of all, thank you for the question.
    First of all, again, you have to have coverage. The second 
issue is, in a 5G world, you are going to have to have 
substantial requirement for backhaul. And getting back to 
either fiber or getting through a microwave link, or even using 
an LTE aggregated spectrum platform that you can use backhaul 
off your own network, it is going to be very, very difficult.
    And so, I hope that the infrastructure investment 
opportunities that have been talked about not only here on the 
Hill, but downtown, actually bring some more dollars to the 
table to build not only the backhaul, but build out the 
networks at the 4G LTE. Because that is going to be the 
building block for the 5G world.
    And I know that we talked about 5G for the cities, the 
smart cities. That is happening now in many areas. And if we 
can't sufficiently build out the coverage in 4G LTE, we are 
going to have a very difficult time in rural areas. And some of 
your district in the far-western end does have some rural 
areas. So, I know that you are interested in that, too.
    Mr. Lance. Well, thank you very much.
    Mr. Carlson?
    Mr. Carlson. Yes, I will just add to that. Well, first, let 
me reemphasize the fact that you need a base layer of 4G in 
existence before you can get the 5G built on top of it, because 
5G is really a supplementary service that integrates well 
because the standard for 5G is being designed to integrate with 
4G. So, we need the 4G service ubiquitous at a high-quality 
level and, then, layer 5G on top of it.
    But I would emphasize spectrum availability for 5G as a 
critical need. There has been some spectrum made available by 
the FCC, and we are certainly grateful for that, but there is 
more spectrum that needs to be made available, and made 
available on a basis where carriers can have confidence that 
they will have access to that spectrum over a longer period of 
time.
    As was noted by the other panelists, when you make an 
investment in building out a network, you need to have 
assurance that your investment will have a long life to it 
because the equipment has long lives, 10 years, 20 years in 
some cases where you are putting in fiber. So, we need 
licensing that is consistent with the timeframe of the 
investments we are making.
    Mr. Lance. Thank you very much.
    Mr. Murray, in 2009, the FCC used its authority to impose a 
shot-clock by municipal reviews of sitting applications, and 
that shot-clock was upheld by the United States Supreme Court 
in a 2013 decision. Given that the shot-clock is now the law of 
the land, are you still experiencing delays in dealing with 
municipal authorities and, if so, what sort of problems are you 
encountering and how should we remedy them?
    Mr. Murray. Thank you, Congressman.
    Shot-clock has worked OK, not great. We have developed in 
northern Virginia and central Virginia, northern Virginia has, 
I don't mean to be pejorative, but there are a lot of NIMBY 
households, and central Virginia there is a ton of history. So, 
I chose to develop towers in some tough areas.
    The shot-clock in northern Virginia, there are two or three 
occasions where my zoning attorney has said to us, ``We're held 
up. They're not going to make the timeline. Do we want to grant 
them an extension?'' And we can either be denied tonight or we 
can agree to an extension. So, it is sort of a gun-to-the-head 
thing.
    I think it, in general, has put localities, made them more 
aware that they can't drag their feet forever, but there are 
still cases where we sort of have to agree to a deal that we 
don't like in terms of extensions.
    Mr. Lance. Thank you very much.
    And, Madam Chair, I yield back 16 seconds.
    Mrs. Blackburn. I will tell you what; you might win the 
prize.
    Mr. Welch, you are recognized for 5 minutes.
    Mr. Welch. Thank you very much. First of all, Madam Chair, 
I want to thank you for having this hearing, and our Ranking 
Member, Mr. Doyle.
    This question of rural broadband and infrastructure in 
rural areas is like incredibly important. And Mr. Latta and I, 
working together on the Rural Caucus, know that.
    And I wanted to say a couple of things. Number 1, this is 
important not just for rural America. Rural America is on the 
ropes. Commodity prices are down, whether it is in coal country 
or it is dairy country, farm country, and rural America is 
vital for the strength of all of America. And we believe that 
or we don't.
    But what is strong about rural America is when it has a 
solid local economy, the folks who have value of family, of 
community, of services, of building up the local fire 
department, of serving on the local bank, they have an economy 
that can work for them and they have that community cohesion 
that I believe this country needs.
    And that is true whether you are in Vermont or you are in 
Ohio or Texas. Rural America matters. We cannot have rural 
America without full commitment to the tools it needs to be 
successful.
    We have got some folks from Vermont here. We have got a 
company that absolutely is dependent on the infrastructure of 
the broadband.
    And the question for us, we agree on that in this 
committee, and you have been providing leadership on this. But 
I also think we have got to get serious on this where we get a 
commitment to real funding and real policies that are going to 
give these folks who are here and are committed to rural 
America an opportunity to be successful on behalf of the people 
we represent. So, we have got to get moving on this.
    And it is not going to happen on its own. If we need 
regulatory changes, we need investment, money, with public 
policy, my view, we have got to do it. We are not getting it 
done. We don't even have an infrastructure plan before us to 
consider in Congress. And I think our committee should be 
taking the lead on conveying a sense of urgency that we have 
got to get moving.
    Now I just want to ask, I will start with you, Mr. Carlson, 
how would you define broadband that would be in the spirit of 
the 1996 act relatively comparable, reasonably comparable to 
what we have in urban areas?
    Mr. Carlson. Well, I can speak to mobile broadband. A 
recent study came out. It was dated the middle of last year. 
So, it is already a little bit obsolete, right, but not 
significantly obsolete. And that showed that across all of 
America that the broadband speeds, the mobile broadband speeds 
now are at 12.5 megabits per second. And as I indicated, I 
think those are growing about 15 percent a year. So, by the 
time the Mobility Fund II auction is concluded, you should 
anticipate that that standard across America, which includes 
rural areas. So urban areas are higher, is probably going to be 
15 megabits per second.
    Mr. Welch. OK.
    Mr. Carlson. Megabits per second. So, any area that is 
significantly lower than that is going to be substandard.
    Mr. Welch. OK. Ms. Hovis?
    Thank you.
    We have got to agreement on what the goal is.
    Ms. Hovis?
    Ms. Hovis. When I think about this infrastructure, wired or 
wireless, a lot of it in my experience just comes back to 
fiberoptics. None of this mobility, none of this wireless, and 
certainly not 5G, is possible without fiberoptics.
    So, I guess my answer to you, Congressman, is that whether 
it is a metropolitan area or a rural area, we need as much 
fiber infrastructure as possible, because faster wireless 
speeds won't be possible unless we have the fiber. And the 
greatly escalating speeds on the wire-line side in metro areas, 
we are moving toward gigabit speeds in certain markets.
    Mr. Welch. OK. I am going to have to stop you there. In 
just a few quick words, I only have 40 seconds left, starting 
with you, Mr. Murray, and going down, Mr. Connors and Berry. 
Success, your definition for rural America?
    Mr. Murray. I completely agree with the need for fiber. One 
thought I had--and it is in its infancy--is I am hearing from 
everybody we don't know, there aren't good standards, there 
isn't good knowledge of what the coverage ought to be. Maybe 
what Congress should do--you are saying, how can Congress help? 
Maybe what Congress should do is insist that localities have 
better maps. Do the mapping that they, for whatever reason, 
need to report back up to where their infrastructure is. And 
that may be a way to get better maps. Without good maps, you 
cannot tell where the problems are.
    The issue I have is maps of tower sites. I get into a 
county and say, ``Well, where are the other towers?'' I say, 
``You're the county''.
    Mr. Welch. Thank you. My time is up.
    Mr. Murray. Sorry.
    Mr. Welch. But I thank you.
    And I yield back.
    Mrs. Blackburn. Mr. Latta, you are recognized.
    Mr. Latta. Well, thank you, Madam Chair, and thanks again 
for having this hearing today. It is very, very informational.
    I also want to thank all of our panelists today for being 
with us today.
    As the gentleman from Vermont just mentioned, he and I 
serve on the Rural Caucus here in this committee. My area goes 
from urban to very, very rural. And so, when you are looking at 
rural America, as again has been mentioned, you have got safety 
issues, the small business issues. You have got agricultural 
issues.
    But we have also worked on the Internet of Things together. 
And so, we have been seeing things across the board as to how 
we can get this country moving and get this out there.
    But one of the other things about serving on this 
committee, you hear great things that are going to be 
happening. You are not looking at the end of the car. I 
remember I took driver's ed a long time ago, and I can remember 
my teacher saying, ``Don't look at the end of the car because 
you've passed it. You've passed it.''
    And so, I know that a couple of years we were told that, by 
the end of this year, that worldwide we would have 1.6 mobile 
devices per capita across the globe, or about 6 or 7 in the 
United States. Recently, I saw a statistic that said we will 
have between 25 to 50 billion interconnected devices by the 
year 2025, and that number is probably wrong.
    But, Mr. Berry, when I looked at your testimony, because, 
again, you brought up some statistics here, and again you cited 
a Cisco report that said that the mobile data use grew 63 
percent in 2016 and 18-fold over the last 5 years. But, then, 
they also say that, when you go out looking over that horizon 
again in the next 5 years, we are going to see another seven-
fold increase.
    Question: from what you presented us right here, when you 
look at what you are facing out there, how do we get that 7-
fold increase out there when we are moving, trying to get 
everybody connected out there, but also have the situation 
where you have something that looks like this?
    I am going to ask everybody real quickly, if I could, what 
would be your dream? I know, Mr. Carlson, you talk about data 
that the government needs to really have. But what would be 
your one desire or goal for us or the regulators that could 
help this problem right here?
    Mr. Berry. Wow. I will note that, after you look at that, 
you wonder how in the heck we actually have a wireless network 
even built with those types of impediments. But the study, the 
Cisco study, a 7-fold increase on top of what would be an 18-
fold increase. You are going to have to have more spectrum and 
you are going to have to have greater builds.
    With those types of impediments, you are going to come up 
to a roadblock, especially when the small cell site that we are 
talking about right here is treated like a tower.
    Mr. Latta. What were we doing before we started it?
    Mr. Berry. I think deem granted, deem approved, if not 
responsive from federal and state and local levels. Education 
is a big issue. If I were a local municipality and I wanted to 
make sure that my citizens were adequately served for a 
broadband product, I would actually put together a model plan 
to say, ``Hey, come to my town because here is the deployment 
plan that we put together and here is what you can guarantee 
that we are going to get approved post-haste in 30, 60 days.'' 
Investment is sort of like water; it is going to go to the 
point of least resistance.
    That is the type of investment that Mr. Carlson and other 
wireless carriers are going to have to make. Those are the 
types of predictable assurances that you are going to need at 
the federal, state, and local level. The federal level, I think 
you do have a lot to say about improving and streamlining that 
process post-haste.
    Mr. Latta. Just real quickly because I have one minute 
left, Mr. Connors.
    Mr. Connors. From a tribal land, we need to have the 
federal government respect the trust responsibility to consult 
with tribes. And decisionmaking, we need to sit at the 
decisionmaking table and be seen as partners in the 
decisionmaking process, not just a requirement to check off a 
box, but to be partners and to move forward in a positive 
manner as partners.
    Mr. Latta. Mr. Murray?
    Mr. Murray. Yes.
    Mr. Latta. Just real quickly.
    Mr. Murray. Just continue to encourage collocation on the 
macro-structures. Let's define small cells. It is great that we 
have the visual aid here. That is not a tower. And I think 
opening federal lands will help in a lot of areas.
    Mr. Latta. Ms. Hovis?
    Ms. Hovis. Congressman, a lot of the processes on that 
diagram with regard to local governments don't really exist in 
rural communities. There is not a lot of that kind of process 
or fees or jumps, hoops you have to jump through, in rural 
communities. In rural communities the challenge is the 
economics just don't attract private capital and we have to 
change that.
    Mr. Latta. Madam Chairman, I see my time has expired.
    But, Mr. Carlson, I know I have written down on yours.
    Mrs. Blackburn. Go ahead, Mr. Carlson.
    Mr. Latta. Again, Mr. Carlson?
    Mr. Carlson. I would agree that the deem granted would be a 
great advance.
    Mr. Latta. Well, thank you very much, Madam Chair. I 
appreciate it and yield back.
    Mrs. Blackburn. Yield back.
    Ms. Clarke, for 5 minutes.
    Ms. Clarke. Thank you, Madam Chair. I thank our ranking 
member. I thank all of our panelists for their testimony here 
this morning.
    I would like to add another dynamic to the conversation 
coming from Brooklyn, New York. This question is directed to 
Ms. Hovis. We have heard a lot about the challenges with 
respect to rural America. I can certainly appreciate those 
challenges.
    One of my observations is that there is some disparity as 
well with deployment in urban environments. And I don't want us 
to be under this impression based on generalized conversations 
about the fact that there are challenges for urban 
environments, particularly for a city like New York where we 
are severely behind in the deployment of fiberoptics.
    In the context of broadband, can you discuss how public/
private partnerships can be used to bring affordable high-speed 
broadband to communities that are currently unserved and 
underserved? And I think it applies across the board. Because 
certainly in cities like New York where you have disparities 
based on socioeconomics, it is very similar to what people are 
experiencing in, say, tribal lands and perhaps also the urban 
environments. Would you share your thoughts with us?
    Ms. Hovis. Thank you, Ms. Clarke.
    Yes, I totally agree. I see those kinds of challenges in 
urban areas all the time, in part, because there are certain 
urban neighborhoods that simply aren't as well-served; for 
example, small business neighborhoods that may have the benefit 
of some old phone company infrastructure that might be 
providing some broadband, might be sufficient to service small 
business need, but there may not be cable infrastructure in 
that area because cable traditionally just went to residential 
areas. So, there is no competition. Pricing is high and service 
is not very good, exactly what you would expect in an 
environment where there is not competition.
    And residential neighborhoods will have the same kinds of 
challenges because private capital is upgrading networks in 
better neighborhoods. Where a public/private partnership can 
help there would be, if a city, for example, can build and 
lease its own infrastructure to the private sector and, thus, 
allowing private sector opportunity and competition in those 
neighborhoods, using some public assets potentially, and if 
there are mechanisms for enabling and supporting and rewarding 
cities for that, rather than punishing them, then we can see 
ways that public and private would both benefit and we could 
fill some very substantial broadband gaps.
    Ms. Clarke. Would say that tax incentives in and of 
themselves can fix this problem?
    Ms. Hovis. Well, I don't think so because, all other things 
being equal, the tax incentives will just make more lucrative 
the deployment patterns that already exist, which is that 
private capital--and this is not a pejorative statement--will 
flow to the places where revenues are greatest and build costs 
are lowest. And that doesn't mean rural areas and that usually 
doesn't mean very low-income areas, either.
    Ms. Clarke. Very well.
    Mr. Murray, you talked about 5G, Internet of Things, and 
the next generation of wireless networks. How can we ensure 
that some communities are not bypassed? What is needed to 
deliver 5G to urban and underserved markets as well?
    Mr. Murray. Well, small cells, I think I have a sense of 
Brooklyn, just thinking of your district. I have two children 
that live in Brooklyn.
    Ms. Clarke. Everybody's children live in Brooklyn.
    Mr. Murray. Yes, right.
    But my guess, from what I know about deploying a signal, is 
that small cells will play a huge role in a place like Brooklyn 
for decades to come. You have huge capacity problems, and small 
cells, essentially, bringing the antennas from 199 feet down to 
40 feet. Put them on the corner of the building.
    So, I think to the extent every cell site needs fiber 
today, which is daunting to think about the mule dragging the 
fiber up in a rural area that Ted was referring to. But in a 
place like Brooklyn, I think you are going to end up with 
really good service because the carriers are densifying these 
networks. More fiber needs to be laid, obviously, but it is a 
good place for small cells.
    Ms. Clarke. Are you confident, for instance, that wireless 
providers will be able to deploy small cell technology at a 
volume sufficient so as to provide universal coverage?
    Mr. Murray. I would expect so. What is the definition of 
universal coverage?
    Ms. Clarke. To make sure that across the spectrum of 
communities that everyone is accessing.
    Mr. Murray. Yes. Again, Brooklyn's greatest playing card in 
this whole game is density. You can put these inexpensive small 
cells literally on street corners. And to the extent you can 
connect fiber with them, you are going to have unbelievable 
service.
    Ms. Clarke. Thank you. Madam Chair, I yield back.
    Mrs. Blackburn. Thank you.
    Mr. Long, 5 minutes.
    Mr. Long. Thank you. Appreciate it.
    Mr. Carlson, to get ubiquitous coverage of 5G, it is going 
to take more than 300,000 small cells deployed across the 
country. And I saw an interesting story recently that suggested 
that the fees charged to small cells are increasing 
exponentially. In fact, in a Minnesota city, in the span of 
just three years, they increased the fees for siting small 
cells from $600 to $7500. I appreciate that some cities and 
states find themselves in economic straits, but how do you make 
sure that siting application costs and management fees don't 
become a deterrent to deployment?
    Mr. Carlson. Well, I think it is an excellent question. I 
haven't really thought about that question in depth. I think 
there needs to be answer to it, but I would respectfully ask 
that maybe we could get back to you with our thoughts on that, 
because it is a big challenge.
    Mr. Long. It is.
    Mr. Carlson. On the one hand, you have the right of the 
city to charge what it wants. On the other hand, you have the 
need of the carrier to deploy. Should you overcome the right of 
the city to charge what it wants? I would really like to think 
about the answer to that.
    Mr. Long. If you will and get back to me, I would really 
appreciate it because it is from $6000 to $7500. I understand 
your point, but that is a little bit of an increase.
    Mr. Carlson. Right.
    Mr. Long. And let's see, for Mr. Berry, in Japan, South 
Korea, China, and the EU, they are all working to regain a 
position of leadership in the wireless space. What has the 
benefit been of U.S. leadership in 4G and what would be lost if 
we don't set the pace in the deployment of 5G services?
    Mr. Berry. Thank you, Congressman Long.
    I think we have benefited greatly by the new jobs and new 
services and new technology that we have been encouraging and 
been able to deploy on the 4G LTE systems. I think if we are 
not the leader in the 5G system, the $22 million that Qualcomm 
said would be attached to 5G with $3.5 trillion may not be 
coming to the United States. It may be going to those other 
areas. And I would like to think that somebody in rural 
Missouri is just as innovative and has just as great a 
capability of being productive in a rural area in Missouri as 
they are in downtown Tokyo.
    And I would go back to your first question to Mr. Carlson. 
That is a huge problem, increasing the fees. This small cell 
site right here costs $6,000. If you are going to have to pay 
$7500 to put it in and also pay annual renewal fees on top of 
that, then that municipality is losing the opportunity to do 
just what you would like to do globally, which is be the leader 
in the 5G world.
    I think education is a huge issue there, and I think 
hearings like today go a long way to make that point. But they 
need to understand, if they look at it as a revenue stream, 
then they are not going to get the capabilities. And you have 
the legislation before you that tries to tie the value of the 
cost to the actual cost of the license and the license 
application review and the management of the right-of-ways.
    Mr. Long. OK. Let me get one more in quickly here for you 
and/or Mr. Carlson, whoever would like to tackle it. But in my 
front office here in the Rayburn Building I have a sign that 
says, ``Bring back common sense.'' And it is the most popular 
sign in my office.
    We can all agree that there is a digital divide between 
urban and rural America. It is imperative that we promote the 
deployment of broadband networks in rural, unserved areas like 
in my home state of Missouri. However, to fix the problem, we 
need to correctly identify the problem. I think a common-sense 
first step we can take is correctly identifying where broadband 
is needed before spending the money.
    For you, Mr. Carlson or Mr. Berry, both of you talk about 
the importance of data and Form 477 in your testimony. In fact, 
Mr. Carlson, you make a great point when you say making smart, 
targeted investments begins with accurate measurement.
    My question is, what has the FCC done to improve its data 
collection and what more can they do?
    Mr. Carlson. Well, my view is that we haven't done nearly 
enough or I should say the FCC hasn't done nearly enough. I am 
sure that they were well-intentioned when they originally 
designed that 477, but that was years ago and needs have become 
more apparent, more obvious now. And now, they need to improve 
that data collection process.
    We have volunteered for our company to provide that data on 
the urban quality level standard within weeks of the time that 
they would ask us for that. We believe that large carriers, 
most carriers, can provide similar data within a period of 
months. All they have to do is ask or, if a carrier won't 
provide the data, to require it. It is not a big job. Most of 
the data sits on computers, and the data can be gotten easily.
    Mr. Long. OK. I am way over time, but do you have anything 
real quickly on that?
    Mr. Berry. I will do ditto on that. We strongly agree, and 
I really do hope that the FCC will address this immediately 
because the Mobility Fund II, which they just approved, over 
the next 10 years is going to spend $4.53 billion, not enough, 
but certainly not enough if you don't have the data to know 
where to spend it.
    Mr. Long. OK, thank you.
    Madam Chairwoman, I have no time, but if I did, I would 
yield it back to you.
    Mrs. Blackburn. I appreciate that.
    Ms. Eshoo, the time is yours.
    Ms. Eshoo. Thank you, Madam Chairwoman, and congratulations 
on your chairmanship of the subcommittee.
    I think that this hearing today is maybe not equal to 
importance as the nomination hearing for the Supreme Court, but 
I think it comes in as a close second because the subject 
matter is an essential for our country. It is an essential for 
our country.
    Broadband access is a basic necessity for full 
participation in modern life. It cuts across, as other members 
have said, as the witnesses have stated, that connectivity is 
an essential tool for education, for health care, for civic 
discourse, for opportunity in our country.
    Every time I heard the questions asked and the answer 
given, and the excellent testimony that was given, my heart 
sank even more because we have a patchwork in our country 
relative to not only access, but speed. Many years ago, the 
action was all about access. We have areas in our country that 
have no access. This is the second decade of the 21st century. 
These are technologies that Americans invented. So, I think we 
have a huge challenge, and I think that we need to in this 
committee advance this the way the Telecom Act was advanced at 
another time. That was in 1996. That is now a long time ago. 
So, when we have 39 percent of households in rural communities 
have no access--no access, we are not even talking about 
speed--they have no access to a fixed broadband provider, I 
should add.
    So, I appreciate the good words that you said about my 
legislation, Dig Once. Congressman Long talked about common 
sense. My grandmother used to say, ``The most uncommon of the 
senses is common sense.''
    Now, on January 24th, the House voted by a voice vote to 
pass H.R. 600, the Digital Gap Act, which would make it a 
policy of the United States to promote build once broadband 
policies to foreign governments. I think we should start at 
home. So, all of the evidence points to that.
    Of all of the recommendations that you have made, I just 
want to go one sentence from each one of you. Because what I am 
looking for out of this subcommittee is a package that is going 
to move us to where we need to land.
    So, starting with Steve Berry, one sentence, one item, what 
do you think you are top item is to get us to where we need to 
be?
    Mr. Berry. Well, that is difficult, but I have got to start 
off with data. If you can't measure it, you can't fix it.
    Ms. Eshoo. OK, data. OK.
    Mr. Connors?
    Mr. Connors. Including tribes and respecting tribal 
sovereignty.
    Ms. Eshoo. All right.
    Mr. Murray. Continue to encourage collocation.
    Ms. Eshoo. OK. Ms. Novis?
    Ms. Hovis. Enabling public/private partnerships.
    Mr. Carlson. Collect the accurate data.
    Ms. Eshoo. OK. So, we have two out of five on data. Well, I 
appreciate that.
    I think, Madam Chairwoman, that with all of the knowledge 
that has been presented to us, the collective knowledge that we 
have on both sides of the aisle here, I really think that we 
need a package for the 21st century. We say the United States 
of America, except there are whole areas of our country that 
are left out. That is just not acceptable. Rural America, and 
in terms of tribes, it is shameful. It really is shameful that 
parents have to drive children I don't know to where to see if 
they can pick up a signal, so that they can get their homework 
done. That is something that should be from other centuries, 
not this century.
    So, I will work with you to put a package together because 
I think this issue deserves it. And we are not going to 
progress economically or otherwise in our nation unless we can 
achieve the full benefit of the technologies that are there. 
Knowing whole parts of our country, whether they are 
underserved, whether they don't have competition, where there 
is absolutely no access or that they are lacking speed, we 
need, I think, to put a package together.
    Otherwise, I think all of these parts, we are going to have 
hearings on all the different parts. But we know in medicine 
that you need to treat the whole body. And I think the body of 
this issue deserves our attention and that a package containing 
the top recommendations here is the way we need to go.
    So, I thank you. It is worth staying here to hear what you 
all have to say, and we appreciate it. Thank you.
    Mrs. Blackburn. The gentlelady yields back.
    And that is why we are having the hearing and that is why 
we are working so hard to push broadband forward, as is the FCC 
and the President. All right.
    Ms. Eshoo. I ask, Madam Chairwoman, that this letter from 
Public Knowledge, with unanimous consent----
    Mrs. Blackburn. Without objection, yes.
    Ms. Eshoo. Thank you very much.
    [The information appears at the conclusion of the hearing.]
    Mrs. Blackburn. Mr. Flores, you are recognized, 5 minutes.
    Mr. Flores. Thank you, Madam Chair.
    Mr. Berry, in your testimony you mentioned the challenges 
that arise as networks move toward 5G and also toward smaller 
cells. And Mr. Long brought up one of those a minute ago that I 
thought was particularly noticeable related to the costs that 
some local governments imposed. Can you elaborate on somehow 
the other current barriers that exist and deployment will 
become more problematic as small-scale architecture becomes 
more prevalent?
    Mr. Berry. Barriers in the sense of permitting or licensing 
or?
    Mr. Flores. You see them now, based on the architecture 
that exists today of the various cell technologies. But, as 
small cell and 5G become more prevalent, looking at the current 
barriers, how do you think they are going to become more 
problematic as you go to smaller and smaller cells?
    Mr. Berry. Well, I think a lot of it goes right to the 
heart of those people that are responsible for managing the 
property and the land. They need to understand that this is an 
opportunity to not only expand a network, but get new 
capabilities and new services.
    One of our CEOs of one our companies said, ``As we get to 
the 5G world, it is a river of pennies.'' The problem is that I 
don't want to only have one or two of those streams of pennies; 
you need it all in order to be profitable.
    So, I hope that small cities, towns, counties, they will 
recognize that there is a small margin of profitability when 
you build out a network, even if you are using small cells. And 
you are going to have to use a lot of these, and you are going 
to have to bring it back to fiber as fast as you can.
    So, I think that recognizing that the benefit is actually 
in the services, in the economic activity that will occur 
because of this capability, is a lot more important than having 
a standard location that is inaccessible.
    And I would note that collocation, while we like 
collocation, there should not be collocation to the detriment 
of multiple locations.
    Mr. Flores. Right.
    Mr. Berry. And that is what is going to allow you to have 
competition in most of these areas.
    Mr. Flores. Right. I think as soon as some of these cities 
begin to look at this as basic infrastructure for the community 
like a road, that they will be better off, instead of as a 
source for fees and permits, and so forth.
    Mr. Murray, in your testimony you discuss the need to 
diversify wireless infrastructure with rooftop sites, small 
cells, distributed antenna systems, et cetera; also, with WiFi 
hotspots and traditional macro-cellular towers to promote 
spectral efficiency and to provide carriers with the capacity 
they need to meet increasing data demands on their networks.
    And so, my question is this: I think you sort of answered 
it in your testimony, but just to be clear, is there a danger 
in relying too much on one type of infrastructure technology?
    Mr. Murray. No, I don't think there is. Mr. Carlson runs a 
network. I develop one type of infrastructure. And he has to 
take a look at 2018 and figure out what is the best return on 
his capital. And that might be 30 percent of his budget goes to 
small cells and 60 percent to towers and the last 10 percent to 
DAS in a given area.
    So, all of these technologies are complementary. Small 
cells are new enough that we are still struggling to define 
what a small cell is. I mean, that is a small box. But if that 
small box is integrated on a 120-foot pole that was built 
without approval, local approval, then you have issues.
    Mr. Flores. Right.
    Mr. Murray. But, no, it is going to be a heterogenous 
network going forward. The towers, the macro-sites, if you 
will, will dominate in rural areas because they just cover so 
much more. And there typically aren't capacity problems in a 
place where there is a town of 5,000 and one main road.
    Mr. Flores. OK. Thank you.
    Madam Chair, I yield back the balance of time.
    Mrs. Blackburn. The gentleman yields back.
    Mr. McNerney, for 5 minutes.
    Mr. McNerney. Thank you, Madam Chair.
    First, I want to direct my question to Mr. Carlson. In your 
testimony you discussed the benefits of investing in mobile 
broadband, but there is approximately 5.3 million veterans 
living in rural areas, accounting for about a quarter of all 
the United States veterans. Can you provide some examples about 
how investing in mobile broadband in rural areas would benefit 
these veterans?
    Mr. Carlson. Yes. Thank you for the question. I haven't 
thought about that, but, certainly, access to great medical 
care is something that veterans dearly need. We have had 
stories about veterans not getting the kind of access that they 
should have, and whether that is remote access in rural areas 
or it is access to the local clinic that may be some distance 
from where they actually live in the rural areas, would be a 
great thing.
    Of course, education for veterans, so that they can gain 
great employment opportunities in our society is another thing. 
So, continuing education and getting that access to continuing 
education at home, so they don't have to drive some significant 
distance to go to school. Those kinds of things would be very 
important.
    Mr. McNerney. Thank you.
    All of the written testimonies show significant benefits to 
broadband, but I am concerned about the growing cyber threats 
that we face. I would like a yes-or-no answer, and then, I will 
drill back, if anyone wants to, from each of you on, would it 
be beneficial to invest early in our cyber protection in the 
broadband planning and development?
    Mr. Carlson. Oh, well, I can just comment on cyber. We are 
investing millions of dollars per year, and that has grown 
dramatically. It has probably grown 20-30 percent a year over 
the last several years, because we are worried about cyber 
attacks to our network.
    Mr. McNerney. So, the question is, how beneficial is it to 
make those investments early in the process as opposed to 
waiting----
    Mr. Carlson. It is very important for every company that is 
involved as a carrier to make investments today in 
cybersecurity and to get cooperation, even more cooperation 
than what we get today from the government informing us about 
threats that they see that we could, then, anticipate.
    Mr. McNerney. Thank you, Mr. Carlson.
    Ms. Hovis?
    Ms. Hovis. Yes, I agree, critical to do it soon.
    Mr. McNerney. OK.
    Mr. Murray. I agree.
    Mr. Connors. Definitely, it is better to invest early and 
get ahead of the problems before there is a problem.
    Mr. Berry. I totally agree, and we would encourage best 
practices and better education on how we build and deploy 
networks, especially for the networks, but also for the 
consumers that utilize the network.
    Mr. McNerney. So, Mr. Carlson, it has been 2-and-a-half 
years since the National Broadband Map was updated. And I know 
you have spoken strongly on this, Mr. Carlson. But, Ms. Hovis, 
is having accurate data important for identifying geographical 
areas that are underserved or unserved?
    Ms. Hovis. Yes, it is absolutely critical, and I spend a 
good amount of time on fixed broadband as well as on mobile, 
but I will agree with everything that Mr. Carlson said.
    And I would say the granularity of data is critically 
important as well. Because when we are seeing data only at a 
very high level, such that there is the implication that there 
is service throughout a community, when perhaps a small part of 
that community is served, but we don't have the granularity to 
know who is and is not, can't really make useful decisions 
about where to invest or where the needs are.
    Mr. McNerney. Would it also be helpful for public/private 
partnerships to have that granularity?
    Ms. Hovis. It absolutely would because it would allow both 
parties to know where they should invest, where they might want 
to target their efforts, how the market is served or not 
served, so that they can understand market dynamics. But it 
also helps the public sector to understand where the needs are.
    So, for example, in many urban areas I work in, whole areas 
of small business concentration have almost no broadband or the 
small business services that are available are just a few 
megabits, which doesn't fit the federal definition of 
broadband. We would want to know to target that, and you can't 
find that out from the National Map at this point.
    Mr. McNerney. Are there specific types of public/private 
partnerships that would be beneficial in rural areas?
    Ms. Hovis. Yes, we have seen some really interesting 
innovation around these kinds of partnerships. So, for example, 
the Commonwealth of Kentucky, in a very visionary, bipartisan 
effort, has entered into a public/private partnership with the 
consortium of private entities that are bringing private 
capital and full private execution, construction, operations, 
customer service, and so on, to a statewide initiative that 
will also open up new opportunity for other companies.
    Mr. McNerney. Too many questions, too little time, Madam 
Chairwoman.
    Mrs. Blackburn. The gentleman yields back.
    Ms. Walters, 5 minutes.
    Mrs. Walters. Thank you, Madam Chairman. I would like to 
thank Chairman Blackburn for holding this important hearing and 
the witnesses for appearing before the subcommittee today.
    The impact of broadband in our everyday lives is 
significant, particularly in my home state of California, where 
wireless technology is growing at an explosive rate. In fact, 
over 41 million California residents access the majority of 
their high-speed broadband connections wirelessly. These 
numbers will continue to grow, which is why the deployment of 
5G technology is so important to my state, and particularly in 
my district.
    In fact, the recent Accenture study mentioned in Mr. 
Murray's testimony estimates that the wireless industry will 
invest $275 billion in communities across the country over the 
next decade to build out our next-gen 5G wireless 
infrastructure, which will support 3 million new jobs and 
contribute $500 billion to the economy. Over $200 million of 
that investment will incur in my district, creating over 2300 
new jobs.
    Unfortunately, the current process to site wireless 
infrastructure is cumbersome and can impede 5G rollout, to the 
detriment of investment and job creation To that end, I would 
like to ask the members of the panel about the obstacles 
related to the current sitings process.
    Mr. Murray, as I just mentioned, the Accenture study you 
raised in your testimony highlights the significant broadband 
investment scheduled to take place over the next several years. 
The most obvious way to continue to encourage this type of 
investment in job creation would be to make significant changes 
to the sitings process for 5G infrastructure. And I know some 
of my colleagues have touched on this, but can you share any 
specific examples where the siting process has disrupted or 
discouraged 5G rollout?
    Mr. Murray. Well, 5G rollout is still sometime in the 
future. And I think we should also recognize that ``5G 
infrastructure'' is essentially layering new gear on top of the 
existing structure. So, in the case of a tower, a carrier is 
going to come back to that tower if they have 4G antennas and 
other gear on the top of the tower. They are just adding gear 
to that.
    So, it is not as if we need to build--we will need more 
small cells. We will need more towers. But it is not a unique 
type of infrastructure. It is just more of the same.
    I am not sure I answered the question, though.
    Mrs. Walters. OK. No, that is fine.
    Mr. Berry, according to the chart submitted with your 
testimony, mobile infrastructure sitings require the 
involvement of at least four federal agencies and state and 
local requirements, which in California can oftentimes be more 
burdensome than environmental reviews. Is the process outlined 
by the chart a reasonable expectation of what carriers can face 
when seeking to deploy technology?
    Mr. Berry. Yes, the chart, I assume you are talking about 
this chart here. I must say that it is actually not as 
inclusive a chart of what it actually would have been, had we 
had more paper. So, yes, it really boils down to whether the 
local community or land manager wants to cooperate with the 
carrier or the provider. From this chart, you can find 1,000 
different boxes to put a ``no,'' ``X'' in, and make a carrier 
resubmit, reapply, do a new study.
    Unless you have this ongoing requirement that this is in 
our national interest, and it should be a priority to have 
services like this in our communities throughout the United 
States, I don't think you are going to change the attitude. 
That is why I say, yes, it is structure and it is organization, 
but it is also local citizens and the communities need to 
decide, do we want the platform to be built so that we can have 
a 5G? And I think it really boils down to where there is a will 
there is a way.
    Mrs. Walters. What relief will the proposals that you 
outline in your testimony do to streamline the deployment 
process?
    Mr. Berry. Well, I think having an entity that is 
responsible, and a federal, state, and local entity that you 
can contact that has an application, responsibility for the 
application, that will respond to you. Many of the land 
managers, at least many of our carriers say, ``Listen, we would 
just appreciate a phone call back telling me the status of my 
application.''
    It should be a priority to receive and get the services 
into the economy. That is part of the missing piece of the 
puzzle, is how do we encourage those that actually have the 
authority at all levels to actually act on it. And I think that 
is why at the federal level the leadership starts there. And I 
think that that attitude can have an indelible impact on 
everyone else down the chain.
    Mrs. Walters. OK, thank you. And I am out of time. Thank 
you.
    Mrs. Blackburn. The gentlelady yields back.
    Mr. Engel, for 5 minutes.
    Mr. Engel. Thank you, Chairman Blackburn.
    As many of you know, New York City, which is my district, 
and the northern suburbs, are doing reasonably well when it 
comes to broadband access. New York has made the decision as a 
state that broadband access needs to be priority, and we have 
made the kind of targeted investments we need to build out 
access for New Yorkers, not just in New York City, but beyond. 
And you know that New York does have a number of rural areas.
    The biggest reason for the difference between my district 
and my colleague's district isn't a difference in need, but a 
difference in density. So, what we need, I think, is, then, 
something to make the buildout more economically attractive to 
areas that aren't as dense as my district. And my district is 
relatively easy because so many people live so closely 
together. We have highrises and dense suburbs. So, it takes 
less cable to connect to people because they are already so 
close together. The less dense the people are, the more towers 
and the more cable you need, obviously.
    So, I know we have talked some already this morning about 
the need for public support to make broadband buildout 
economically viable. And I appreciate that this subcommittee is 
all on the same page when it comes to the need to do that 
buildout.
    But the White House, and they have spoken about 
infrastructure investment before, has talked about using tax 
credits to try to improve the economics. My feeling is that 
direct investment would not only be more straightforward than 
tax credits, but do a better job, also, of bending the cost 
curve, which means it would be that much easier to hire the 
folks to build and maintain the towers and the cables while 
also bringing the internet and all the economic activity that 
comes with it to more of the country.
    Mr. Berry, let me ask you, based on your work, do you have 
a sense of how much a tax credit program would do to improve 
the economics?
    Mr. Berry. I hesitate to give you a number because, quite 
frankly, I don't know, especially all situations are different. 
And my initial impression would be straight tax credits, unless 
it is an accelerated tax credit or an immediate tax credit or a 
reduction in your out-of-pocket expenses, will have very 
little, will create very little incentive to build out in rural 
America.
    Quite frankly, I think it will be the same in urban/
suburban America. What you need is lower-cost deployment 
opportunities for devices like this, like the small cells, and 
it is the service itself that is going to bring the economic 
opportunities to the constituent.
    I just think that there has to be some real money attached 
to the support, the subsidy. In many of these rural areas, the 
economic model to build out and provide these services is very 
strained.
    Mr. Engel. Let me ask you, in your written testimony you 
talk about direct predictable support. Can you explain what you 
mean by that and why do you feel it is so important?
    Mr. Berry. Direct?
    Mr. Engel. Direct predictable support.
    Mr. Berry. For example, under USF Mobility II, we have 
languished almost for 5 years, not knowing that we are going to 
have a Mobility II, not knowing how much money it is going to 
be. And when we had Mobility I, most of our carriers had spent 
the money out of Mobility I, built the towers, had to wait for 
over a year to get paid.
    So, their planning process of how do we expect to spend our 
money and eventually maybe get a return on our money is sort of 
unknown. And so, I think direct predictable support from a 
Mobility II that gives our carriers an opportunity to say, yes, 
I am going to go out there and build this and I know it can 
sustain the cap ex, the cost to build it, and I know it can 
sustain the op ex, i.e., the cost to continue to support that 
cell site or that service, is predictable.
    I think we need more. I think that, with this committee's 
help, with good data and information there, you are going to 
find out where you can spend that extra $10 and maybe have a 
substantial impact.
    Mr. Engel. Anybody else, with 33 seconds left, have any 
idea about this? Any difference of opinion or agreement?
    Mr. Murray. A quick thought is that, if there is less 
regulation, then the carriers can spend those monies on 
building out more sites. I mean, in the rural areas it is just 
a question of building more sites.
    Mr. Engel. Thank you. Thank you, Madam Chair.
    Mrs. Blackburn. The gentleman yields back.
    Ms. Brooks, for 5 minutes.
    Mrs. Brooks. Thank you, Madam Chairwoman.
    I am a former Deputy Mayor of Indianapolis. And so, I fully 
appreciate the importance of building out infrastructure in a 
community. Because if we invest, it attracts businesses and 
grows jobs, and so forth.
    And our legislature in Indiana is also embracing innovation 
and, in fact, is considering legislation that empowers the 
deployment of small cell devices to bring 5G buildout to 
Indianapolis. Because the city of Indianapolis is currently a 
test site for 5G, the buildout is attracting that 21st century 
infrastructure.
    And so, while I am learning more and I am a huge fan of 5G, 
what I am curious about, Mr. Murray, with respect to many state 
legislatures, I understand, including Indiana, are considering 
the type of legislation that would prevent municipalities from 
adopting burdensome and unneeded and local regulations that 
would impede the deployment of small cell technology necessary 
for 5G. Do you believe that that type of state legislation is 
needed to ensure the rapid deployment of 5G technology, and do 
you believe there is a continuing federal rule to ensure there 
are proper guideposts around local regulation for the placement 
of this type of technology?
    Mr. Murray. Yes, I think we are struggling as an industry 
right now in defining it. It is a matter of scale. Again, the 
Wireless Infrastructure Association believes, if we talk about 
height, it is 50 feet, and it is a limited number of antennas. 
That magnitude or less is a small cell. Anything larger is a 
tower that should go through the normal, responsible local 
review.
    WIA has model legislation that is a much longer version of 
what I just described. I think that legislation will be 
guidepost to states as each state wrestles with this question 
of how do we define this new technology.
    Mrs. Brooks. Mr. Berry, last week another Energy and 
Commerce Subcommittee held a hearing on smart communities and 
the way technology can enable more efficient transportation 
systems, better policing, and so forth. Can you address what 
your members of your group are doing to partner with localities 
to enable cities like Indianapolis to leverage 5G technologies?
    Mr. Berry. Thank you.
    Well, first of all, you have to get to the gigabit network 
if you are going to find yourselves in a 5G, even if it is 
testbed. So, it is the backhaul and the fiber that is the first 
requirement. And then, it is the deployment, not only the small 
cells, but the coverage.
    So, many of our carriers, U.S. Cellular included, are 
already doing testbeds for 5G. What do we have to do? Some of 
our smaller carriers have said, ``Listen, Steve, my most 
difficult challenge is figuring out the business model for a 
small town or city when I have a No. 1 priority to get a 4G LTE 
VoLTE buildout. And then, how do I figure out how do you invest 
and build that 5G system that has a return on investment?''
    And so, they are reaching out to the communities. Many of 
the smaller carriers--like in Mr. Shimkus' district, I think 
the largest town is 33,000. Well, they are going into those 
towns and they are saying, ``What can we do together and how 
can we do it in an efficient, effective way, because we don't 
have a lot of money?''
    So, that is educational process. That partnership process 
is absolutely critical. And I salute you and those in 
Indianapolis that have reached out and taken that very serious 
step of addressing deployment scenarios that may not be 
particularly popular in some venues.
    Mrs. Brooks. In fact, I wanted to ask, then, maybe Mr. 
Murray, or back to you, Mr. Berry, when you have communities, 
what are the educational tools you are using? This is very, 
very complicated information to try to relay to whether it is 
city councils, state legislatures, and others. How are you 
educating people on these things?
    Mr. Berry. It is a problem because you are right, this is 
extremely technical. There is more computing capability in your 
smartphone than put up the first Apollo 1 mission. So, it is 
very technical, but I think it is just a matter of working with 
the localities and sitting down in a forum that not only 
explains the growth and the economic opportunities, but also 
can explain what it will take in order to build that out. It is 
changing minds, and that is sometimes one of the more difficult 
things to do. But I think as they see the rest of the world 
moving very quickly in this regard, and they see economic 
growth and jobs attached to it, I think that is a pretty 
powerful message to be sending.
    Mrs. Brooks. I agree. Yield back. Thank you.
    Mrs. Blackburn. Mr. Bilirakis, for 5 minutes.
    Mr. Bilirakis. Thank you, Madam Chair. I appreciate it so 
very much. I thank the panel for their testimony today.
    Mr. Berry and Mr. Murray, in order to realize the full 
potential of emerging technologies, it is important for 
governments at all levels to make their permitting and 
regulatory process more efficient. Under the discussion draft, 
state and local governments may opt into the information 
database. What are the incentives for local governments to opt-
in? And we will start with Mr. Berry, please.
    Mr. Berry. Well, as we were just talking, I think the 
incentives are economic growth and job opportunities. But don't 
forget mHealth, mobile health, and education, two huge drivers 
in most local communities, and the convenience that that brings 
to the table. And those communities, they are going to be 
bypassed if they don't have a program or at least a methodology 
of addressing a buildout, and how do you accommodate an 
architectural buildout within a larger area. I think that is 
something that the state and local governments have to address.
    In my early years before I went to law school, I did city 
management, city planning and city management, and went to 
something easier. I went to law school. So, that is a tough 
job. It is a tough job.
    Mr. Bilirakis. Very good.
    Mr. Murray, please.
    Mr. Murray. Yes, I will have WIA get something for the 
record on that.
    Mr. Bilirakis. Thank you. Thank you.
    Next, this is for the panel. In a prior hearing on these 
discussion topics, a witness testified he had experienced an 
unexpected fee of $30,000 on a project site on DoD management 
land. Is that representative of the unexpected cost you face 
related to fees? And are you given any notice by any agency 
that you may be subjected to a significant fee for a project? 
Or are you just handed a bill? Who would like to begin? We will 
start from here.
    Mr. Berry. Well, I would just say that it is not unheard of 
to have troubles like that when you are trying to build out a 
network. It normally doesn't happen exactly that way. You have 
some indication that you are not going to get the license or 
you are in the appellate process.
    But, again, I will refer to the chart here. As you go down 
and hit all the boxes and try to check off all the 
requirements, it can be a huge expense. With small carriers 
that are serving small rural communities, and they only have a 
limited footprint, they don't have the resources.
    This chart was put together with a lot of time, effort, and 
energy from attorneys. Most of my small carriers don't even 
have an attorney on staff. They may have a person they call an 
engineer. So, it is very, very difficult and could be cost-
prohibited.
    Mr. Murray. We have worked sites through that--I don't even 
know what is on that paper, but I know our process is very, 
very complicated to getting DS.
    I will say, Steve mentioned, you need to give the parties 
in each box some incentive. I think that the localities are 
getting it. They realize that there are tradeoffs. If you want 
these incredible services, well, maybe we will have to see a 
telecommunications structure on the horizon. Are we willing to 
pay that price? It is not a big price. But there are tradeoffs 
to it. I think that the municipalities are moving along.
    I agree with my colleague Joanne in that many of these 
issues are now sort of flow of capital. It is hard for us to 
build in rural areas right now because the carrier cap ex is so 
focused on indensifying the network in the urban areas. We, as 
a business, need a lead tenant and we need a second tenant. And 
the second tenants are just not there as readily as they were 
in the past because of this need to densify in the urban areas.
    Mr. Bilirakis. Has anyone else received a large, unexpected 
fee on the panel, similar to the $30,000 fee?
    OK, well, then, let me go on with the next question. I know 
I don't have much time. I have 15 seconds.
    A followup: have you or your member companies ever created 
a feasible broadband proposal, only to abandon the project due 
to repeated and unexpected fees? And does the discussion draft 
address this issue? Who would like to respond on that from the 
panel? Yes?
    Mr. Carlson. I can just comment that I don't know the 
answer, but I know we have abandoned cell sites----
    Mr. Bilirakis. Yes.
    Mr. Carlson [continuing]. When the difficulty of getting 
them sited and agreed to by the local community was too much. I 
don't know whether it was specifically fee-related, but we have 
had to abandon cell sites which we think was harming. And that 
abandonment we believe harmed those communities.
    Mr. Murray. We have absolutely had the same experience. In 
western Loudoun County, we had a whole network of sites that 
would have brought broadband to that whole community. In 2008, 
a whole network of sites was denied just on sort of 
unreasonable community opposition. We believe it was 
unreasonable and they still lack service.
    Mr. Connors. We were close to abandoning the project a few 
times based on putting the money out ahead of time, not based 
on the fees, but based on the cost of the project and waiting 
for reimbursements. Reimbursements from the grant had to wait 
sometimes 6-12 months, a couple of years. It was the upfront 
costs that were making it cost-prohibitive for a while.
    Mr. Berry. And we have had members, several members have 
told me that they had to not only abandon sites because of 
expectations that they are not going to get a USF. You remember 
they cut the USF, the Universal Service Fund Mobility II funds 
in the last administration significantly. And some carriers 
actually went out of business because they are so small and 
their boards said, ``We can't sustain another 20-, 30-, 60-
percent cut in reimbursements.'' And they sold their 
operations. And so, for small carriers, that is always a 
concern. Are you going to build or overbuild your capacity?
    Mr. Bilirakis. All right. I am sorry, Madam Chair. Thank 
you very much. I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Collins, last in the queue.
    Mr. Collins. Oh, my, thank you, Madam Chair.
    I want to thank the witnesses here today.
    Just a little background. I have eight rural counties in 
upstate New York. We are talking Buffalo, Lake Erie, Lake 
Ontario. Four of my counties do not have acceptable broadband 
coverage. In fact, my ``get out of jail free,'' if somebody is 
on the phone, I just say, ``I'm up in Wyoming County now. I 
just lost my cell signal.'' So, one of my counties I don't even 
have cell coverage.
    Recently, Verizon turned down $170 million on broadband 
buildout in New York State. Fortunately, Ajit Pai, the new 
Chair of FCC, saw the rationale of keeping that money in New 
York, and one of the first things they did was designate that 
$170 million to stay in New York, but we will have to figure 
out exactly where that goes.
    So, Mr. Berry, part of my question for you. One of my 
neighbors in the shopping plaza at my district offices in Blue 
Wireless is a CCA member, very small, a very small provider.
    So, my thought goes around this: first of all, Congress 
does a lot of things. And rule 1 is do no harm. But, number 2, 
the FCC, now under Ajit Pai, will be doing a lot of regulations 
that I think will really benefit this topic today without 
legislative work by Congress.
    I guess the question I have got, in particular, is, in New 
York State, western New York, upstate, a desperate need for 
monies and buildout of broadband. What role do you think 
Congress plays versus FCC regulations? Because, again, let's 
not get ahead of ourselves here, and especially addressing 
someone like your fellow member, Blue Wireless, a smaller 
provider. I think in some cases they will step in where Verizon 
won't. But to make sure we are not doing something in either 
way, FCC or Congress, to somehow cut these small guys, like 
your clients and my neighbor, cut them out of the process.
    Mr. Berry. Blue Wireless is a great member. They also 
participate in our Device Hub, where we essentially put a 
consortium together to ensure that the small carriers can get 
the state-of-the-art devices at the lower costs through 
aggregation of acquisitions of handsets. So, they are one of 
the smaller carriers that are out there, really unique, making 
a unique imprint in their territory.
    Yes, I think what the FCC did here on the USF Mobility II 
was a real improvement. We are not out of the woods yet, 
though, on the data issue. We are going to have a challenge 
process, and the data is still not available.
    So, those carriers like Blue Wireless, MTCPs, and some of 
the other smaller carriers, are going to have to challenge the 
data that, Number 1, we know is incorrect. And they are going 
to have to spend a lot of money to make sure that the data that 
they submit is actually correct and for the FCC to make a 
decision on whether or not they are going to get access to USF 
funds.
    And so, Blue Wireless is courageous in the fact that they 
are out there competing with the larger carriers in a very 
small area and on a shoestring. So, I think some of the 
regulations that Pai is doing away with may help them just as 
much on reporting requirements and some of the other issues.
    But, on USF, that predictability of those funds is 
critical. And the next phase, once we finish the legacy, you 
know, the drawdown of the legacy, it is the new-build funds 
that they are going to have to challenge and they are going to 
have to be ready to fight for. Hopefully, we will help them 
fight for them.
    Mr. Collins. Well, I thank you for that because we all 
share the same concern going forward. We don't have enough time 
to get into some of the delays. But I noted in your testimony 
the concern of 2020 is still three years away, and we sometimes 
get frustrated with moving at a snail's pace. But, you know, we 
can cover that another day.
    So, Madam Chair, I am going to yield back 48 seconds, so 
you can't blame me for going over. Thank you very much.
    Mrs. Blackburn. I will accept that time back, and seeing no 
further members to ask questions, I want to thank all of our 
witnesses that are with us today.
    Mr. Berry, the ranking member and I were talking about the 
small cell site. What we would like to know is range of 
coverage for that cell site. It would be helpful to us going 
forward. And you can submit that to us for the record, if you 
would like.
    Mr. Berry. OK. And I have got the specs for the cell site. 
One of my members, Nokia, provided it. So, I thank them.
    Mrs. Blackburn. OK. And if you will submit that for the 
record?
    And to all of you, thank you. You are dismissed.
    We are going to quickly reset to the second panel, spend 
about 2 minutes doing that, and then, move forward with the 
second panel.
    Votes are expected sometime between 1:10 and 1:25.
    [Recess.]
    Mrs. Blackburn. In the interest of time, we are moving 
forward with our second panel. I do want to welcome all of you 
back.
    The same format as with the first panel. You will each be 
given 5 minutes for your opening statement. And Ms. Clarke and 
I have agreed that we will do 3 minutes for questioning per 
member on each side and, hopefully, move forward with this 
panel. We are thrilled that you are here.
    Mr. Darr, Mr. Bryan Darr, who is the CEO of Mosaik 
Solutions, and I think a Tennessean.
    Mr. Darr. Yes, I am.
    Mrs. Blackburn. And we welcome you.
    And, Mr. James Stegeman, who is the president at CostQuest 
Associates, we welcome you.
    Mr. Stegeman, we will begin with you with 5 minutes. You 
are recognized.

     STATEMENTS OF JAMES W. STEGEMAN, PRESIDENT, COSTQUEST 
     ASSOCIATES, INC. AND BRYAN DARR, CEO, MOSAIK SOLUTIONS

                 STATEMENT OF JAMES W. STEGEMAN

    Mr. Stegeman. Good afternoon, Chairman Blackburn and Vice 
Chairman Lance, Ranking Member Doyle, and Members of the 
Subcommittee.
    My name is James Stegeman. I am President of CostQuest 
Associates. It is an honor to be here to discuss the status of 
broadband in the U.S.
    Let me first start with a brief introduction of my firm, 
CostQuest Associates. My company specializes in understanding 
costs, assets, and the geography of broadband deployment. We 
work with the largest ILEC, cable, and wireless carriers in 
evaluation of their networks. We work with a number of cities 
and states in understanding fiber deployment issues, and we 
have created both the economic model behind the National 
Broadband Plan as well as the FCC's current Connect America 
cost model that is used to disperse over $3 billion annually.
    Now let me jump to the heart of my testimony today. Let me 
first focus on terrestrial coverage using the latest FCC 477 
data. If we look at the nationwide map on the screen, 76.3 
percent of homes have access to service with download speeds at 
or above 100 megabits per second, what I refer to as 
``served''. 13.6 percent have access to speeds between 25 and 
100 megabits per second, or what I refer to as ``underserved''. 
And 10 percent of homes remain unserved with speeds under 25 
megabits per second. It is an interesting picture that shows, 
while the majority of the population is served, the majority of 
the land mass is unserved.
    In the next chart I have summarized the coverage in your 
congressional districts. The blue represents the portion of 
your district that is served. Orange represents what is 
underserved, and gray represents what is unserved.
    If we move to the mobility side, we used access to LTE as a 
basis to prepare the map you see now on the screen. This map 
shows, based upon the FCC's current 477 data, that 10 percent 
of roads do not have access to LTE. Conversely, 99.5 percent of 
household appear to have LTE access.
    In my filed testimony, I have provided maps of both 
terrestrial and mobile coverage for your districts, in part to 
let you view the data, but to see if it lines up with your on-
the-ground experience.
    With current coverage reviewed, I moved to the question of 
how do we encourage the expansion to all homes and roads. I 
will focus on what I believe to be the key hurdle, economic 
viability. And that is, commercial broadband networks may be 
too expensive to make a fair return for commercial entities.
    In the chart on the screen, I provide the estimate by state 
of building out new fiber networks in the non-served portions 
of the country using our cost model output. Nationally, the 
total is over $90 billion. In the next chart, I have broken out 
the capital requirements for each of your congressional 
districts.
    Now let's move to the cost of wireless buildout for 
portions of the nation's roads unserved by mobile LTE. My firm 
recently developed an estimate for the investment to build out 
wireless. The results show that bringing 4G LTE to the 
remainder of unserved roads would cost an estimated $12.5 
billion in initial investment.
    And not to sit on our Gs, we also looked at cost of 5G. In 
the table on the screen, I provide a summary of the estimated 
upfront investment needed to deploy a meshed 5G network to the 
entire U.S. under a number of scenarios.
    Under the most aggressive deployment assumptions, with high 
demand and support for autonomous vehicles on all primary 
roads, $250 bill in capital would be required, of which $56 
billion is for the underlying fiber network.
    I have focused my discussion on the coverage data provided 
by the FCC. While it is the best public source of coverage 
information, improvements could be made.
    On the terrestrial side, we have the issues that arise from 
the one-served/all-served nature of the data. With respect to 
mobility, my firm independently assessed the ground realities 
of availability and speeds in areas of South Carolina as 
compared to the 477 data. The map on the screen shows the 
results of the drive test in southeast South Carolina. The 
light blue shows the 477 coverage; the black dots show the 
locations where service was not available, and the red dots 
show locations where speed was under 4 megabits per second. As 
evident, this drive test does not comport with the reported 
coverage. In part, the conflict is driven by the lack of 
uniform standards for carriers to submit 477 data.
    As a final topic, a number of cities and states are looking 
to programs to expand broadband. New York, for example, 
established a broadband investment program to utilize $500 
million to bring service to nonserved areas across the state. 
The size of the fund, along with the goal of achieving 100 
megabits per second statewide by the end of 2018, make this 
program one of the largest and most ambitious of its kind in 
the country. By the end of 2018, they will move their served 
percentage from 70 percent to well over 98 percent.
    In conclusion, my testimony focused on coverage, data, and 
estimates potential cost. While efforts to collect data, model, 
and understand these complex areas may be time-, labor-, and 
data-intensive, as with all my client work, we need to strive 
to collect and develop the best information to make informed 
decisions.
    Thank you.
    [The prepared statement of James W. Stegeman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. I thank the gentleman.
    Mr. Darr, you are recognized for 5 minutes.

                    STATEMENT OF BRYAN DARR

    Mr. Darr. Thank you.
    Good morning. My name is Bryan Darr, and I am the President 
and CEO of Mosaik Solutions, previously known as American 
Roamer.
    I want to thank Chairman Blackburn, Ranking Member Doyle, 
and the fellow members of the Subcommittee on Communications 
and Technology, for the opportunity to speak with you today.
    Expanding and accelerating broadband deployment requires 
reliable information. Without trusted data about coverage gaps, 
we will not stimulate private sector investment, advance toward 
the goal of universal service, expand broadband into more rural 
areas, or maintain the competitive broadband market we see 
today.
    Since I founded Mosaik in 1988, our sole mission has been 
to produce reliable data about wireless network coverage and 
performance. Almost 30 years later, we are still a small 
business. We have less than 50 employees and we are still based 
on Memphis, Tennessee. But we offer some of the most accurate 
insight into network coverage and performance available in the 
market.
    More simply put, we tell our clients where they can 
reasonably expect to have access to a variety of mobile 
networks and how reliable wireless networks are at any given 
point in the United States and much of the rest of the world.
    Mosaik has supported part of the FCC's recurring 
informational needs for many years. The FCC uses our 
CoverageRight datasets in its annual competition reports and 
other policy and regulatory decisions.
    Mosaik and its competitors stake our reputations on 
supporting the products and services we provide to our clients. 
Despite healthy competition and increasingly sophisticated data 
analysis among private sector network analysis companies, the 
FCC has sought to displace this industry by mandating use of 
its own data analytic tools.
    In 2013, the FCC elected to expand its Form 477 to mandate 
that carriers provide information directly to the Commission. 
In some cases, the FCC uses its in-house data to the exclusion 
of all other sources.
    The Wireless Telecommunications Bureau recently stated that 
its Form 477 coverage data is ``the best available data we have 
today.'' It is not. The Form 477 mobile broadband coverage data 
is flawed.
    First, there are no defined specifications for what radio-
frequency conditions or methodologies are required. Second, the 
FCC's data is out-of-date almost as soon as it is filed. Form 
477 data is too infrequently updated and has too large of a 
time gap between reporting date and release date.
    For example, mobile network coverage data as of December 
2015 was released in September 2016, a lifetime in this fast-
moving industry. During this 9-month period alone, a national 
operator radically expanded the population served with its LTE 
network while another more established operator added thousands 
of square miles of rural LTE coverage. That is precisely why 
Mosaik's LTE network coverage datasets are updated monthly.
    Relying exclusively on antiquated or inferior government-
mandated data threatens to frustrate mobile broadband 
deployment and harm American consumers. And the FCC's decision 
to exclude other types of data threatens to crowd out private 
investment from U.S. companies, including Mosaik, that compete 
to provide similar, and we believe far superior, products about 
network coverage and performance.
    These private companies, responsible for much of the 
innovation, have provided gains in predicting and understanding 
network availability. Our measurement capabilities must keep 
pace with changing developments. Operators are testing 
innovative strategies to improve coverage in urban areas. As 
the number of households with landline telephone service 
continues to decline, improving indoor network availability and 
performance will prove a priority for municipalities and public 
safety organizations.
    New technologies offer promising solutions to these issues. 
We commend the FCC for recognizing the importance of data-
driven decisionmaking. When measuring the availability of 
broadband to consumers, the FCC should take into account all 
sources, especially as providers embrace newer technologies to 
improves network quality.
    That holistic approach is consistent with longstanding 
executive branch policy which directs agencies to rely on the 
private sector when feasible. Here, policymakers can greatly 
augment the quality and depth of their data and at a cost 
equivalent to a handful of cell sites. When government agencies 
embrace the capabilities of private companies, instead of 
competing with them, taxpayers can spend less money and benefit 
from sound policymaking, based on more accurate and timely data 
about network coverage and performance.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Bryan Darr follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Blackburn. I thank the gentleman for the testimony.
    And I will begin the question-and-answer and will give 
myself 3 minutes to begin those questions.
    Mr. Stegeman, let's talk about the 2009 Recovery Act. RUS 
approved 297 broadband infrastructure projects funded by 
stimulus dollars, totaling $3.5 billion. Yet they had no data 
tracking where the funding went and did not have accurate maps 
of areas to target in advance of awarding those grants. As a 
result, instead of benefitting the expected 7 million Americans 
as was promised, the program has served approximately 213,000 
households and 15,000 businesses.
    So, as we talk about broadband expansion, how do we avoid 
this kind of misdirection of funds from happening in the future 
and moving forward?
    Mr. Stegeman. It is a great question because, as you look 
at those funds that were deployed, I think, in part, they were 
pushed out quickly without an examination of all the available 
data. There was a lack of data at that time to understand 
really what was needed in those areas, and there was a lack of 
information on the followup from that deployment, so that you 
really didn't know what was deployed, so that competing 
carriers, other interested parties, may know what is available 
and what is not available.
    So, I think a big driver to make things successful is to 
make, one, information available to all parties. So, where is 
broadband infrastructure available? If public funds are used to 
help deploy those, that information and location of that should 
be made available.
    We should also have information about where demand is and 
where unserved portions of the country are. In part, that is 
why I provided those maps, so you get a sense of what is 
available at the FCC, so that we can understand how to improve 
the data to make better and more informed decisions.
    Mrs. Blackburn. Mr. Darr, do you have a thought on that?
    Mr. Darr. Well, for starters, the vintage dates on what was 
being collected on a state-by-state level were not the same. 
Ultimately, as the data was collected up and assembled at a 
national level, what we ended up with was inconsistency in time 
that the data was captured.
    There was also a lack of direction in terms of what 
standards should have been used. As we heard the earlier panel 
talk today, talk earlier today, about defining standards so 
that what is being reported is apples to apples----is rather 
critical.
    Mrs. Blackburn. Let me come to you with one other question, 
and I am almost out of time on this. You talked a little bit 
about overlaying the traditional coverage with wireless. How 
can that be beneficial to infrastructure development and what 
are the type problems to expect when you start that overlay of 
a wireless with the traditional?
    Mr. Darr. So, we think a layered approach is critically 
important to understanding really what is going on. All 
networks, as they are being engineered, start with a predictive 
model, an RF model, that says we think this is the area that is 
going to be served by putting up this cell site at this height, 
at this spectrum.
    But, as you encounter real-world situations, interference 
from buildings, trees, whatever it may be, you have issues with 
some of that. And the traditional method of going out and 
testing those networks has been drive testing, and that is 
still an extraordinarily important part of how the operators 
judge the performance of their networks.
    But we now have millions upon millions of devices in the 
field that are capable of collecting more information and 
trending over time. But you only get this type of information 
and we will call this crowdsourcing, although it can be a 
larger explanation--you will only get this where there is a 
crowd. And so, you get very good information, lots of 
information from Brooklyn, but you don't get very good 
information from rural Iowa, as Mr. Loebsack was suggesting 
earlier.
    So, you do need this layering effect in order to be able to 
capture that. Where you have specific issues that need more 
directed testing--and drive testing provides an excellent way 
of doing that--but you have to see it holistically.
    Mrs. Blackburn. Thank you, and my time has expired.
    Mr. McNerney, for 3 minutes.
    Mr. McNerney. Well, I thank the Chair.
    Mr. Darr, in your written testimony, you mention that the 
Form 477 mobile broadband is flawed. Is there one change that 
would improve it? For example, improving the frequency that the 
reporting is required?
    Mr. Darr. I think there are two, actually. And the 
frequency would be one, but how to capture that data, how to 
process that data, normalize it, and put it into a system that 
it can be utilized and analyzed is part of what takes that 
time. And that expertise does exist in the private sector 
today.
    Mr. McNerney. Would you say that the Form 477 fixed 
broadband data is also flawed?
    Mr. Darr. We concentrate primarily on the wireless data. I 
would be happy to have some of our other experts answer that as 
a followup.
    Mr. McNerney. Thank you.
    Mr. Stegeman, you mentioned that there are categories 
unserved, underserved, and served. Why do you believe that that 
distinction is important?
    Mr. Stegeman. There are a number of reasons. Part of that 
category came from our work with the state of New York in which 
they were looking at deploying and making sure all consumers 
had access to 100-megabit service.
    If you look at the FCC's current definition of broadband 
service, it is 25 megabits or less. If you look at the National 
Broadband Plan, the No. 1 goal of the National Broadband Plan 
was to make sure all citizens had access to 100-megabit 
service. So, there are kind of the two points on the extreme. 
That in-between is what we kind of think of as an underserved 
potential that may be less expensive to exploit and get up to 
the 100-megabit service.
    Mr. McNerney. OK. Very good.
    You also mentioned that Form 477 has an assumption that you 
call ``one-served/all-served'' assumption, and that it has a 
flaw in it that could overestimate the number of homes served 
by high-speed internet access. Could you explain how the one-
served/all-served assumption works and how we might address the 
problem?
    Mr. Stegeman. Yes. First, the FCC collects information at 
the census block level. There are about 11 million census 
blocks in the U.S. They are non-standard shapes. They can be as 
small as a city block, but they can be, also, as big as 
multiple miles.
    When a carrier reports their 477 data, they can identify a 
census block as served. So, you assume the whole thing is 
served if just a single customer in that census block is 
served. So, when you get out into rural areas with these bigger 
census blocks, it may be the edge of a census block is served, 
one customer, but the rest of the area is under- or unserved.
    So, it makes an issue from the aspect of, one, you can't 
recognize that these customers don't have access to service 
and, two, you can't institute programs to address them because 
you have no knowledge. So, to address that concern, what you 
could either do is require providers to supply additional 
information as to potentially what percentage is served or, 
also, potentially providing street segments that are served. So 
that you can understand kind of the dimensionality of that 
service within that census block.
    Mr. McNerney. Very good. Well, respecting my time 
limitations, I will yield back.
    Mrs. Blackburn. The gentleman yields back.
    Mr. Shimkus, for 3 minutes.
    Mr. Shimkus. Thank you. I will be very short. But you had 
no time left, Mr. McNerney; you ran out.
    Having said that, mapping as a key. I like the map if you 
were here for the opening statements. We have to have a 
national standard. Obviously, you highlight three different 
speeds, I think, and then, we use the map to focus on unserved 
and underserved areas. That is what my goal would be, is to 
direct resources, whether it is hard-line data, fiberoptics, or 
cellular. It depends and every area is going to be different.
    I looked at this closely, and I wish I would have grabbed 
you beforehand because this data is 2016. When you have got 
these colors, what year is that?
    Mr. Stegeman. That is the latest available data from the 
FCC. It is June of 2016.
    Mr. Shimkus. OK. I would just highlight that the way--and I 
am not trying to put you on the spot--but it is just the 
district that you have for my district is from the 2002 
district lines. So, I would update the congressional district 
lines to current to help us figure. Because about one-third of, 
well, actually, about two-thirds of this isn't in my district. 
So, we have got to have confidence in our maps, whichever ones 
we are using.
    Mr. Stegeman. No, I understand. My staff informed me before 
I got here today that we used an older version.
    Mr. Shimkus. Right. That is OK.
    Mr. Stegeman. But we can file a new version.
    Mr. Shimkus. OK. That would be helpful. And I yield back.
    Mrs. Blackburn. The gentleman yields back.
    Ms. Clarke, 3 minutes.
    Ms. Clarke. Thank you, Madam Chair.
    This question is for Mr. Stegeman. As you may know, I 
represent the 9th Congressional District of New York, and 
broadband deployment is key to creating jobs and attracting 
businesses to my district in the state of New York.
    Ms. Stegeman, one of the programs you cited in your written 
testimony as being particularly instructive is New York's $500 
million program being carried out by the Empire State 
Development Corporation. Can you explain what, in your view, 
makes that program so innovative and successful? And are there 
lessons that we can learn from the New York program that could 
be applied at the federal level?
    Mr. Stegeman. Yes, I would be happy to. It has been an 
honor for me to work on the program. It is an innovative 
approach in which federal or state funds have been identified 
to help build out unserved areas.
    The way it is approached is it is a reverse auction. So, 
actually, it is a competitive bidding on unserved areas across 
the state, and multiple providers can come in and bid on those 
areas, and the lowest bid wins. So, it is an efficient use of 
state funds and it is a way for incumbent carriers to bid on 
expanding out services in their footprint at a lower cost than 
maybe a competitor. So, it protects the incumbent if they want 
to bid and potentially have a cost advantage of billing out. 
And it is statewide in that it is addressing the issues.
    So, it is one of the few states that I have seen that has 
made a vast expansion of broadband deployment. As I said, by 
2018, there will be well above 98 percent of customers or homes 
in New York that will have access to 100 megabits or more. So, 
it is a pretty expansive program.
    Ms. Clarke. And that cuts across the rural, suburban----
    Mr. Stegeman. Across the full state, yes.
    Mrs. Blackburn. All right. Mr. Johnson, 3 minutes.
    Mr. Johnson. Thank you, Madam Chairman.
    I am going to continue to beat a little dead horse today, I 
fear, a little bit.
    Mrs. Blackburn. OK.
    Mr. Johnson. In Appalachia, let me just give you some 
statistics to kind of set the stage for my question. Broadband 
coverage, 25 megabits per second or more, in my district, 60.5 
percent. That is 34 percent below the U.S. median district and 
over 5 percentage points less than geographically-similar 
districts. Looking at high-tech sector workers, half of the 
U.S. median district, almost half of economically-similar 
districts--and there is no wonder because we don't have access 
out there and it is really hard.
    So, one of the problems we have got is data collection. Mr. 
Darr, we have got limited funding to do this kind of work. Data 
accuracy is so critical. Today there are parts of my district, 
for example, that barely register on GPS. God knows, I have 
tried to travel it and get to places.
    Can you talk about the unique challenges of data collection 
in rural America and why Form 477 data is inadequate to collect 
this information?
    Mr. Darr. Well, certainly. Thank you for the question.
    Form 477 data is collected from the operator's predicted RF 
patterns. And this has been the accepted way of doing things 
all along. But in the early days all we were worried about was 
voice. Can you make a phone call or not? And now, what we are 
worried about as much as voice, if not more, is data. What is 
an acceptable signal out on the edges of the network to, say, 
push through a text message or notify someone that they have an 
e-mail? It is very different from being able to download a 
video. It is very different, indeed. It takes a great deal more 
throughput to do that.
    And so, when the operators define an area as being covered, 
and you go out there and find that it is not covered to your 
satisfaction, it doesn't mean that they are not telling you the 
truth, but it does mean that you can't necessarily do what you 
want to do with the service.
    Being able to better define what areas have a certain level 
of service I think is extraordinarily important in determining 
ultimately that. And we think being able to capture that 
information from devices in the field is the only affordable 
way to be able to reach all of the country.
    Mr. Johnson. OK. Madam Chairman, I will yield back.
    Mrs. Blackburn. Mr. Flores, 3 minutes.
    Mr. Flores. Thank you, Madam Chair, and I appreciate this 
discussion.
    Mr. Stegeman and Mr. Darr, how long do you think it would 
take to compile a comprehensive map, an accurate map, of 
broadband coverage, given that the data has already been 
collected and given the capabilities of companies such as 
yours?
    Let me go a different direction first before you do that. 
It seems to me like you have talked about one of the challenges 
of creating accurate maps and you point out the lack of 
standards related to what constitutes coverage. What is the 
right standard to use? Because I think that is how we get to 
our map question really.
    Mr. Stegeman. That was primarily addressed at the mobility 
coverage. So, when mobility providers provide their coverage, 
as Mr. Darr talked about, they provide potentially what their 
either (a) marketing maps look like or (b) they are just 
projective of what that coverage is. There are no standards on 
decibel loss, on the quality of the signal. There is no stated 
standard on what the minimum megabits are in that coverage. It 
is, basically, please provide us a map of your 4G coverage.
    Mr. Flores. OK.
    Mr. Stegeman. And that is what you do.
    Mr. Flores. OK. But, in order to get to the right standard, 
what should we do to develop that standard?
    Mr. Darr. Defining--and I would leave the ultimate number 
up to RF engineers, but neg 85 was mentioned earlier, I will 
say that.
    Mr. Flores. OK.
    Mr. Darr. It is a good way of putting everybody on more of 
a level playing field. But seeing where that extended coverage 
is is also important as well. It should not be dismissed.
    Mr. Flores. OK.
    Mr. Darr. But it should be recognized that, in order to 
have a specific minimum anticipated quality of service, that a 
standard should be put in place.
    Mr. Flores. So, assuming that we get this standard in 
place, how long do you think it would take to create the map 
based on your capabilities, the data we have to describe those 
areas, to describe the quality of our broadband coverage 
nationwide?
    Mr. Darr. The majority of operators have this data 
internally. They use it for their own planning purposes, for 
their own technical support requirements. So, a lot of this 
data is already there. It may need to be reconfigured a bit to 
specifically meet the needs of the requirements at hand, but it 
could be done, I think, in a relatively short period of time. 
Again, that is the predicted coverage.
    When you are talking about taking measurements out in the 
field, planning and executing drive testing, the four areas of 
specific interest are going to take some time. And I would 
leave that question up to Mr. Stegeman.
    As far as collecting information from devices, you could, 
by encouraging the public to share information about what is 
happening on their device and getting a better idea of what the 
actual consumer and device experience is, can give you a large 
trending information set.
    Mr. Flores. We have gone past my time. Mr. Stegeman, if you 
get a chance, can you supplementally answer that question to 
the committee?
    Mr. Stegeman. Yes.
    Mr. Flores. I mean after this. I have run past my time. 
Thank you, Madam Chair.
    Mrs. Blackburn. I thank the gentleman.
    As you all can see, this is an issue that our members care 
about tremendously. And I would ask that you remain open to 
answer questions by writing in--Mr. Stegeman, you just had the 
one from Mr. Flores--as we complete our record on this today.
    This does conclude our Q&A portion. And before we conclude, 
I do ask unanimous consent to enter the following letters into 
the record: a letter from the Satellite Industry Association, a 
letter from Rocket Fiber, from American Cable Association, a 
letter from the CTIA, and a letter from Century Link. Without 
objection, that letter will be entered into the record.
    [The information appears at the conclusion of the hearing.]
    Mrs. Blackburn. And pursuant to committee rules, I remind 
members that they have 10 business days to submit additional 
questions for the record. And I ask that witnesses submit their 
responses within 10 business days of receipt of those 
questions. Seeing no further business before the committee 
today, without objection, the subcommittee is adjourned.
    [Whereupon, at 1:23 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Greg Walden

    High speed Internet access has made communications and 
commerce easier than ever before and the importance of 
broadband in America's economy cannot be understated. In order 
to guarantee that all Americans--including folks living in 
rural areas like my district in eastern Oregon--have access to 
the tools they need to succeed in the 21st century economy, our 
policies must reflect our commitment to deploying the physical 
infrastructure of broadband.
    Last Congress, this subcommittee took a thoughtful approach 
to identify barriers to broadband infrastructure deployment and 
examined proposals that would eliminate them. I know Chairman 
Blackburn's leadership on this issue will lead to a 
comprehensive approach that will help bring broadband to the 
unserved parts of our country.
    As Chairman Blackburn has said, broadband is the 
infrastructure of the 21st century. I stand ready to work with 
my colleagues to ensure that broadband is included in any 
infrastructure package that moves through Congress. But as we 
look to expanding our national investment in broadband we 
cannot do so without reliable data. Unfortunately, too often 
our data is insufficient and investments are not targeted where 
they can do the most good. Until we know where broadband is and 
where it is not, we will continue to make the same mistakes 
that have slowed rural buildout for years. This subcommittee 
spent a lot of time in the 112th and 113th Congresses living 
with the consequences of bad data as we investigated the 
Broadband Stimulus programs. And the Universal Service Program 
has long suffered from a lack of good data. This has lead to 
inefficient investment and more than a decade of work by the 
agency and USAC to stamp out bad actors and to recover from bad 
investments. We must not repeat the mistakes of the past or 
double down on inefficiencies.
    I commend Chairman Blackburn for expanding on our work from 
last Congress with a focus on improving mapping data. We must 
ensure that every dollar--whether from private investment or 
directed through our federal programs--is invested where it is 
needed most. I'm also glad to see Ms. Eshoo's ``Dig Once'' bill 
has made a return this Congress. I think that this is smart 
policy and will help spur broadband deployment across the 
country.
    Without access to a high-speed Internet connection our 
businesses and constituents are inherently at a disadvantage in 
the 21st century. We must work to connect these underserved 
areas of the country and our work to achieve that objective 
continues today.
                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
